Appendix A

Lindsay v. State, --- So.3d ---- (2019)

2019 WL 1105024
Only the Westlaw citation is currently available.
NOT YET RELEASED FOR PUBLICATION.
Court of Criminal Appeals of Alabama.

Stephon LINDSAY
v.
STATE of Alabama
CR-15-1061
|
March 8, 2019
Synopsis
Background: Defendant was convicted in the Etowah Circuit
Court, CC-13-652, of capital murder, and was sentenced to
death. Defendant appealed.

Holdings: The Court of Criminal Appeals, Kellum, J., held
that:
trial court was not required to conduct formal competency
hearing to determine defendant's competency to stand trial;
prospective juror was not required to be removed for cause
based on fact that juror had gone to school with defense
counsel's mother and father and had known the district
attorney his whole life;
any error in trial court's failure to remove prospective juror
for cause, based on fact that juror had gone to school with
defense counsel's mother and father and had known the
district attorney his whole life, was harmless;
prospective juror was not required to be sua sponte removed
for cause based on her indication during voir dire that she
might have a hard time due to the nature of crime photos; and
prospective juror was not required to be sua sponte removed
for cause based on fact that juror was a probation officer and
knew district attorney and staff.
Affirmed as to conviction; remanded for correction of
sentencing order.

Cole, J., recused himself.
Appeal from Etowah Circuit Court (CC-13-652). William
B. Ogletree, Judge
Attorneys and Law Firms
Angela L. Setzer and Alison N. Mollman, Montgomery; Paul
R. Roberts II, Gadsden; and Scott F. Stewart, Gadsden, for
appellant.
Steve Marshall, atty. gen., and Stephen M. Frisby, asst. atty.
gen., for appellee.
Opinion
KELLUM, Judge.
*1 The appellant, Stephon Lindsay, was convicted of
murdering his 21-month-old daughter, Maliyah Lindsay, an
offense defined as capital by § 13A-5-40(a)(15), Ala. Code
1975, because Maliyah was less than 14 years of age. The
jury unanimously recommended that Lindsay be sentenced to
death. The circuit court followed the jury's recommendation
and sentenced Lindsay to death.1 This appeal, which is
automatic in a case involving the death penalty, followed. See
§ 13A-5-55, Ala. Code 1975.
The State's evidence tended to show that on March 12, 2013,
police discovered Maliyah's body in a wooded area after
Lindsay confessed to murdering her and told police where
he had taken her body. Dr. Valerie Green, medical examiner
with the Alabama Department of Forensic Sciences, testified
that Maliyah died of “multiple sharp force injuries” to her
neck and that the cuts severed her jugular vein and carotid
artery. (R. 1811.) The cuts were so deep, Dr. Green said,
that Maliyah's spinal cord was visible. Maliyah also had
cuts on her chest and chin, defensive wounds on her hands,
and bruising around her mouth, which was consistent with
someone holding his hand over Maliyah's mouth. (R. 1786.)
Tasmine Thomas, Maliyah's mother, testified that she and
Lindsay had two children together and that Maliyah was born
in June 2011. She testified that at the time Maliyah was
murdered she and Lindsay and the children lived in a twostory apartment on White Avenue in Gadsden. On March 5,
2013, she said, she stayed in the apartment all day and went
to the grocery store that evening. When she got back from the
store she started feeling sick and went to bed. Lindsay told

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Lindsay v. State, --- So.3d ---- (2019)

her that his sister was going to take Maliyah to go stay with
her so that Thomas could have a break. Thomas testified:

In the circuit court's sentencing order, the court set out the
following facts surrounding Lindsay's confession:

“[Prosecutor]: Was there anything unusual about the way
that [Lindsay] was acting between the time that you last
saw Maliyah and when you wanted to go get her?

“The videotape of [Lindsay's] statement to police was
admitted into evidence at trial, in which [Lindsay] talked
at length about his religion, Yahweh ben Yahweh, and
how he came to be a believer. He said that he was told
by Yahweh to kill his daughter. He said that the reason
he had to kill Maliyah was because she had become like
an idol to him because of her beauty and innocence, and
because he loved her too much. Lindsay described how
he murdered his daughter, cutting her throat and nearly
decapitating the child. He told Hammonds that he used an
axe or hatchet to kill the child on the evening of March 5,
2013, at the apartment on White Avenue, while Tasmine
and their infant daughter were sleeping upstairs. He said the
murder took place in the room beside the kitchen. Lindsay
told detectives that during the murder, Maliyah tried to
scream but he held his hand over her mouth.

“[Thomas]: No. He was -– He did what he normally does.
Like, he was cleaning a lot downstairs. He was cleaning a
lot.
“[Prosecutor]: Was that unusual?
“[Thomas]: No. He cleaned a lot already. But he was doing
it a little bit too much.
“[Prosecutor]: Why do you say a little bit too much?
“[Thomas]: Because I smelled a lot of bleach. It was strong.
“[Prosecutor]: Did you ask him about it?
“[Thomas]: I asked him why was he using so much bleach.
“[Prosecutor]: What did he tell you?
“[Thomas]: He said because he liked the smell of bleach
when he cleans. Like, he was using bleach Pine-sol.”
(R. 1569-70.) Thomas said that on March 11, 2013, she asked
Lindsay when he was going to bring Maliyah home. She said
that Lindsay left their apartment early that morning and told
her that he was going to get Maliyah. She waited for Lindsay
about three hours and then telephoned Lindsay's sister. His
sister told her that Maliyah had not been with them and
that she had not seen Maliyah since March 5. Thomas then
telephoned emergency 911.
*2 Det. Thomas Hammonds with the City of Gadsden Police
Department testified that he was assigned to investigate the
case and that police tried to locate Lindsay and tracked his
cellular telephone to an address in Clayton. When Lindsay
came out of the door of the residence he asked Lindsay if
Maliyah was okay and Lindsay responded, “No, she's not
okay” ... “She is not alive.” (R. 1600.) He took Lindsay back
to the police station and advised him of his Miranda2 rights.
Lindsay confessed that he killed Maliyah by cutting her neck,
and he told police that he put her body in a bag and took
the body to a wooded area. He also said that he took several
weapons, an axe and several swords, and disposed of them
near the body.

“Lindsay said that he placed Maliyah's body in a tote bag,
and put it on the front seat of his car when he left the
apartment. He said that he waited until very late to leave
with the body, then just started driving. He said he left her
body in the bag in the woods off the side of the road. He
took the hatchet and his swords to another street and threw
them into the woods. He then used Clorox and washing
powders to clean up the blood in the apartment. He left the
apartment on March 11, 2013, after telling Tasmine he was
going to pick up Maliyah at this sister's house. He said that
he sold his car, but that he never intended to run away, he
just needed the money. Lindsay said he always intended to
tell the truth about what he had done to Maliyah.
“Following the directions Lindsay gave, Gadsden police
officers went to a wooded area off Plainview Street and
began to search. They found Maliyah's body near a bucket
in the woods containing a dead puppy. After searching that
area, officers brought Lindsay to the scene. He directed
them to an area on the side of the mountain off Brentwood
Avenue, where he said he threw the hatchet and the
swords into the woods. Investigators from Gadsden Police
Department, the Etowah County Sheriff's Department, the
Etowah County Drug Enforcement Unit, and agents from
the Center for Applied Forensics at Jacksonville State
University conducted an extensive search of the heavily
wooded hillside that went on throughout the night and the
following day. Officers found two knives or swords that
had belonged to Lindsay, but the hatchet was not recovered,
due to the steep terrain and dense woods. On the other

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Lindsay v. State, --- So.3d ---- (2019)

side of the road, in a ravine, officers recovered several torn
pieces of paper and/or cardboard containing [Lindsay's]
religious writings, as well as an empty Clorox bottle.”
(C. 115-16.)
In his defense, Lindsay presented the testimony of Dr.
Robert Bare, a psychologist at Taylor Hardin Secure Medical
Facility (“Taylor Hardin”). Dr. Bare testified that he evaluated
Lindsay and that it was his opinion that Lindsay suffered from
paranoid schizophrenia with a personality disorder.
*3 “[Dr. Bare]: [W]hen [Lindsay] initially came to
[Taylor Hardin] he had -– Mr. Lindsay had exhibited
delusions of grandiose delusions that he was the son of
Yahweh, that he had been -– that some of the acts that we
will talk about in a minute were prompted by his belief in
Yahweh and essentially commanded to him by Yahweh.”
(R. 1856.) Lindsay was placed on medication and improved,
Dr. Bare said.
On cross-examination, Dr. Bare stated that he spoke with
many of Lindsay's family members.
“[Prosecutor]: So based upon your conversations with all
these family members, none of them were able to tell you
about any bizarre or overtly psychotic behavior by Mr.
Lindsay before he killed this little girl, right?
“[Dr. Bare]: Correct.
“[Prosecutor]: So all of a sudden he gets down to Taylor
Hardin and he walks in the door hallucinating?
“[Dr. Bare]: Apparently. That was in his report, yes.
“....
“[Prosecutor]: And people do sometimes feign, fake, or
exaggerate psychotic symptoms in order to get a certain
result, do they not?
“[Dr. Bare]: Yes, sir.”
(R. 1901-02.) Dr. Bare also testified that he had not seen
Lindsay experience any hallucinations but relied on what the
staff at Taylor Hardin and Lindsay had told him. He further
stated that before Lindsay was brought to Taylor Hardin and
while he was incarcerated at the county jail he exhibited no
“overt sign of any kind of psychotic behavior.” (R. 1903.) He
could not say if the hallucinations were caused by Lindsay's
mental-health issues or by Lindsay's substance abuse.

The jury found Lindsay guilty of murdering Maliyah. A
presentence report was prepared and a sentencing hearing
was held before the same jury. The jury unanimously
recommended a sentence of death after it found two
aggravating circumstances: (1) that Lindsay had previously
been convicted of a felony involving the use or threat of
violence to the person, § 13A-5-49(2), Ala. Code 1975; and
(2) that the murder was especially heinous, atrocious, or cruel
as compared to other capital murders, § 13A-5-49(8), Ala.
Code 1975.3 The circuit court issued an order sentencing
Lindsay to death. This appeal followed.

Standard of Review
Because Lindsay has been sentenced to death, this Court must
search the record of the trial proceedings for “plain error.” See
Rule 45A, Ala. R. App. P. Rule 45A, states:
“In all cases in which the death penalty has been imposed,
the Court of Criminal Appeals shall notice any plain error
or defect in the proceedings under review, whether or
not brought to the attention of the trial court, and take
appropriate appellate action by reason thereof, whenever
such error has or probably has adversely affected the
substantial right of the appellant.”
In discussing the scope of plain error, this Court in Johnson v.
State, 120 So.3d 1130 (Ala. Crim. App. 2009), stated:
“ ‘The standard of review in reviewing a claim under
the plain-error doctrine is stricter than the standard used
in reviewing an issue that was properly raised in the
trial court or on appeal. As the United States Supreme
Court stated in United States v. Young, 470 U.S. 1, 105
S.Ct. 1038, 84 L.Ed.2d 1 (1985), the plain-error doctrine
applies only if the error is “particularly egregious” and
if it “seriously affect[s] the fairness, integrity or public
reputation of judicial proceedings.” See Ex parte Price,
725 So.2d 1063 (Ala. 1998), cert. denied, 526 U.S. 1133,
119 S.Ct. 1809, 143 L.Ed.2d 1012 (1999); Burgess v.
State, 723 So.2d 742 (Ala. Crim. App. 1997), aff'd, 723
So.2d 770 (Ala. 1998), cert. denied, 526 U.S. 1052, 119
S.Ct. 1360, 143 L.Ed.2d 521 (1999); Johnson v. State,
620 So.2d 679, 701 (Ala. Crim. App. 1992), rev'd on
other grounds, 620 So.2d 709 (Ala. 1993), on remand,
620 So.2d 714 (Ala. Crim. App.), cert. denied, 510 U.S.
905, 114 S.Ct. 285, 126 L.Ed.2d 235 (1993).’

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Lindsay v. State, --- So.3d ---- (2019)

*4 “Hall v. State, 820 So.2d 113, 121–22 (Ala. Crim.
App. 1999), aff'd, 820 So.2d 152 (Ala. 2001). Although
the failure to object will not preclude our review, it will
weigh against any claim of prejudice. See Dill v. State, 600
So.2d 343 (Ala. Crim. App. 1991), aff'd, 600 So.2d 372
(Ala. 1992).”
Sale v. State, 8 So.3d 330, 345 (Ala. Crim. App. 2008).
We now review the issues raised by Lindsay in his brief to
this Court.

Guilt-Phase Issues
I.
Lindsay first argues that the circuit court committed reversible
error by failing to conduct an “appropriate inquiry” into his
competency to stand trial and that the court's failure to do so
violated federal and state law.
The record shows that in April 2013 Lindsay moved that he be
examined by a mental health expert. (1 Supp. 50-52.) In this
motion, Lindsay requested that he be evaluated to determine
whether he had the present ability to assist in his defense or
whether he was competent to stand trial. The circuit court
issued an order on April 15, 2013, directing that Lindsay
be evaluated to determine his competency to stand trial and
his mental state at the time of the offense. (1 Supp. 57-59.)
Lindsay was transferred to Taylor Hardin in October 2013.
Dr. Bare examined Lindsay and determined that Lindsay was
a paranoid schizophrenic. Lindsay was prescribed medication
for that condition and seemed to improve.
Several months later Lindsay was returned to the Etowah
County jail. In December 2015, Lindsay filed a second motion
for a mental examination to determine his competency to
stand trial and argued that his attorney had “noticed the
deterioration in [Lindsay]” since Lindsay had returned to the
county jail. (C. 43-45.) The circuit court granted the motion,
and Lindsay was examined a second time to determine his
competency to stand trial. (C. 46-47.)
At a pretrial hearing in February 2016, the circuit court noted
that Lindsay had been examined twice at Taylor Hardin. The
circuit court noted that Dr. Bare had determined that Lindsay
was competent to stand trial; that Dr. Bare's report had been
filed under seal in December 2015, after the second mental

examination; and that Dr. Bare's letter of December 18, 2015,
also discussed that Lindsay was competent to stand trial. (R.
174.)4
The defense also called Dr. Bare to testify in its case-inchief. Dr. Bare testified on cross-examination that it was
his opinion that Lindsay was competent to stand trial. (R.
1898-99.) Moreover, Lindsay filed several pro se motions
during the course of the proceedings. Lindsay's motion for a
new trial was articulate and well reasoned.5
*5 On appeal, Lindsay argues that based on the record
the circuit court was obliged to hold a formal competency
hearing.
“The United States Supreme Court in Pate v. Robinson[,
383 U.S. 375, 86 S.Ct. 836, 15 L.Ed.2d 815 (1966),]
held that a trial court must conduct a competency hearing
when it has a ‘reasonable doubt’ concerning the defendant's
competency to stand trial. That Pate holding is incorporated
into § 15–16–22, Ala. Code 1975. That section reads, in
pertinent part:
“ ‘(a) Whenever it shall be made known to the presiding
judge of a court by which an indictment has been
returned against a defendant for a capital offense, that
there is reasonable ground to believe that such defendant
may presently lack the capacity to proceed or continue to
trial, as defined in Section 22–52–30, or whenever said
judge receives notice that the defense of said defendant
may proceed on the basis of mental disease or defect
as a defense to criminal responsibility; it shall be the
duty of the presiding judge to forthwith order that such
defendant be committed to the Department of Mental
Health and Mental Retardation for examination by one
or more mental health professionals appointed by the
Commissioner of the Department of Mental Health and
Mental Retardation.’
“(Emphasis added.)
“Rule 11.1, Ala. R.Crim. P., defines ‘mentally
incompetent’ as ‘lack[ing] sufficient present ability to
assist in his or her defense by consulting with counsel with
a reasonable degree of rational understanding of the facts
and the legal proceedings against the defendant.’
“Rule 11.6, Ala. R.Crim. P., provides:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Lindsay v. State, --- So.3d ---- (2019)

“ ‘(a) Preliminary Review. After the examinations have
been completed and the reports have been submitted to
the circuit court, the judge shall review the reports of the
psychologists or psychiatrists and, if reasonable grounds
exist to doubt the defendant's mental competency, the
judge shall set a hearing not more than forty-two (42)
days after the date the judge received the report or,
where the judge has received more than one report, not
more than forty-two (42) days after the date the judge
received the last report, to determine if the defendant is
incompetent to stand trial, as the term “incompetent” is
defined in Rule 11.1. At this hearing all parties shall be
prepared to address the issue of competency.’
“(Emphasis added.)
“The trial court has been described as the initial ‘screening
agent’ for mental-health issues:
“ ‘[Section 15–16–21, Ala. Code 1975] places the initial
burden on the trial court to determine whether there
are “reasonable grounds” to doubt the accused's sanity.
“The trial court is, thus, the ‘screening agent’ for mental
examination requests.” Reese v. State, 549 So.2d 148,
150 (Ala. Cr. App. 1989). “ ‘It is left to the discretion
of the trial court as to whether there is a reasonable
or bona fide doubt as to sanity, and, thus, whether a
further examination is required.’ ” 549 So.2d at 150. The
trial court makes a preliminary determination “without
the aid of a jury as to whether reasonable grounds
existed to doubt the defendant's competency.” Rule 11.3,
A.R.Crim. P., Committee Comments.’
“Daniels v. State, 621 So.2d 335, 337 (Ala. Crim. App.
1992).
*6 “ ‘Competency to stand trial is a factual
determination.’ United States v. Boigegrain, 155 F.3d 1181,
1189 (10th Cir. 1998). ‘There are of course, no fixed
or immutable signs which invariably indicate the need
for further inquiry to determine fitness to proceed; the
question is often a difficult one in which a wide range of
manifestations and subtle nuances are implicated.’ Drope v.
Missouri, 420 U.S. 162, 180, 95 S.Ct. 896, 43 L.Ed.2d 103
(1975). ‘In making a determination of competency, the ...
court may rely on a number of factors, including medical
opinion and the court's observation of the defendant's
comportment.’ United States v. Nichols, 56 F.3d 403, 411
(2d Cir. 1995). ‘Comments of defense counsel concerning
an accused's competency to stand trial are not conclusive;

however, they should be considered by the court.’ Williams
v. State, 386 So.2d 506, 510–11 (Ala. Crim. App. 1980).
‘Given that “a defendant's behavior and demeanor at trial
are relevant as to the ultimate decision of competency,”
we stress that the observations and conclusions of the
district court observing that behavior and demeanor are
crucial to any proper evaluation of a cold appellate record.’
United States v. Cornejo–Sandoval, 564 F.3d 1225, 1234
(10th Cir. 2009). ‘[O]ne factor a court must consider
when determining if there is reasonable cause to hold
a competency hearing is a medical opinion regarding a
defendant's competence.’ United States v. Jones, 336 F.3d
245, 257 (3d Cir. 2003).
“ ‘We have said that “[i]t is the burden of a defendant
who seeks a pretrial competency hearing to show that
a reasonable or bona fide doubt as to his competency
exists.” Woodall v. State, 730 So.2d 627, 647 (Ala. Cr.
App. 1997), aff'd in relevant part, 730 So.2d 652 (Ala.
1998). “ ‘The determination of whether a reasonable
doubt of sanity exists is a matter within the sound
discretion of the trial court and may be raised on appeal
only upon a showing of an abuse of discretion.’ ” Id.; see
also Tankersley v. State, 724 So.2d 557, 564 (Ala. Cr.
App. 1998).’
“Freeman v. State, 776 So.2d 160, 172 (Ala. Crim. App.
1999).”
Luong v. State, 199 So.3d 173, 194-96 (Ala. Crim. App. 2015)
(opinion on remand).
“Rule 11.6(a) authorizes the circuit court to make a
preliminary determination that reasonable grounds exist
to conduct a competency hearing, based on the reports
submitted by examining psychologists and/or psychiatrists.
Authorizing the court to make this initial determination will
avoid mandating a competency hearing when reasonable
grounds do not exist to doubt the defendant's competency
to stand trial, as evidenced by the reports of the examining
psychologists or psychiatrists. While this procedure
safeguards valuable court time and resources, it also
ensures that the defendant's right to a competency hearing
before a judge or jury will be preserved when reasonable
grounds exist to doubt the defendant's mental competency.
“After reviewing the reports, if the judge finds reasonable
grounds to doubt the defendant's mental competency, the
judge must schedule a competency hearing within fortytwo (42) days after the date the last report is received.”
Committee Comments to Rule 11.6, Ala. R. Crim. P.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Lindsay v. State, --- So.3d ---- (2019)

“Rule 11.6(a) does not automatically require a competency
hearing following the mental examination. Only when the
judge finds after a review of the reports that ‘reasonable
grounds exist to doubt the defendant's mental competency’
is the judge required to set a competency hearing and that
hearing must be held not more than 42 days after the judge
receives the report.”
Tankersley v. State, 724 So.2d 557, 565 (Ala. Crim. App.
1996).
Furthermore, a diagnosis of paranoid schizophrenia does not
mean that a defendant is per se incompetent to stand trial.
See State v. Anderson, 244 So.3d 640, 650 (La.Ct.App.
2017) (“The fact that [the defendant] suffers from paranoid
schizophrenia is not inconsistent with a finding that he was
competent to stand trial.”); State v. Woods, 301 Kan. 852,
861, 348 P.3d 583, 592 (2015) (“[The defendant] is not per
se incompetent just because he was previously diagnosed
with schizophrenia.”); In re Rhome, 172 Wash. 2d 654,
662, 260 P.3d 874, 879 (2011) (“[The defendant] carried
a diagnosis of paranoid schizophrenia, but had been found
competent to stand trial and was allowed to proceed pro
se with standby counsel.”); State v. Braden, 98 Ohio St.
3d 354, 375, 785 N.E.2d 439, 462 (2003) (“[The mental
health expert] diagnosed [the defendant] as suffering from
paranoid schizophrenia, but this diagnosis is not synonymous
with incompetence to stand trial. ‘A defendant may be
emotionally disturbed or even psychotic and still be capable
of understanding the charges against him and of assisting his
counsel.’ ”); State v. Elam, 89 S.W.3d 517, 521 (Mo.Ct.App.
2002) (“[A] defendant may be diagnosed with a mental
disease and still be declared competent to stand trial.”); State
v. Frezzell, 958 S.W.2d 101, 104 (Mo.Ct.App. 1998) (“The
actual presence of some degree of mental illness or need for
treatment does not necessarily equate with incompetency to
stand trial.”).
*7 Lindsay was not automatically entitled to a competency
hearing because he had been examined by a mental-health
expert to determine his competency to stand trial. The circuit
court had Dr. Bare's written findings that Lindsay was
competent to stand trial and had the luxury, which this Court
lacks, of personally observing Lindsay's demeanor during
the proceedings. Lindsay also filed several articulate pro se
motions with the circuit court. Based on Dr. Bare's findings
and the court's personal dealings with Lindsay, we agree with
the circuit court that it had no “reasonable grounds” to make
any further inquiry into Lindsay's competency to stand trial

See Luong v. State, supra. Lindsay is due no relief on this
claim.

II.
Lindsay next argues that the circuit court erred in deathqualifying the prospective jurors because, he says, it created
a conviction-prone jury.
“A jury composed exclusively of jurors who have been
death-qualified in accordance with the test established in
Wainwright v. Witt, 469 U.S. 412, 105 S.Ct. 844, 83
L.Ed.2d 841 (1985), is considered to be impartial even
though it may be more conviction prone than a non-deathqualified jury. Williams v. State, 710 So.2d 1276 (Ala. Cr.
App. 1996). See Lockhart v. McCree, 476 U.S. 162, 106
S.Ct. 1758, 90 L.Ed.2d 137 (1986). Neither the federal
nor the state constitution prohibits the state from ... deathqualifying jurors in capital cases. Id.; Williams; Haney v.
State, 603 So.2d 368, 391–92 (Ala. Cr. App. 1991), aff'd,
603 So.2d 412 (Ala. 1992), cert. denied, 507 U.S. 925, 113
S.Ct. 1297, 122 L.Ed.2d 687 (1993).”
Davis v. State, 718 So.2d 1148, 1157 (Ala. Crim. App. 1995)
(opinion on return to remand).
The circuit court committed no error in death-qualifying the
prospective jurors. Lindsay is due no relief on this claim.

III.
Lindsay next argues that the circuit court erred in failing to
remove four prospective jurors for cause that, he says, were
biased against him.
Lindsay objected to the circuit court's failure to remove only
one of the challenged jurors. Therefore, we review the failure
to sua sponte remove three of the jurors for plain error. See
Rule 45A, Ala. R. App. P.
When discussing a trial court's failure to remove a juror for
cause, this Court has stated:
“To justify a challenge for cause, there must be a proper
statutory ground or ‘ “some matter which imports absolute
bias or favor, and leaves nothing to the discretion of the trial
court.” ’ Clark v. State, 621 So.2d 309, 321 (Ala. Cr. App.
1992) (quoting Nettles v. State, 435 So.2d 146, 149 (Ala.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Lindsay v. State, --- So.3d ---- (2019)

Cr. App. 1983) ). This Court has held that ‘once a juror
indicates initially that he or she is biased or prejudiced or
has deep-seated impressions’ about a case, the juror should
be removed for cause. Knop v. McCain, 561 So.2d 229, 234
(Ala. 1989). The test to be applied in determining whether a
juror should be removed for cause is whether the juror can
eliminate the influence of his previous feelings and render
a verdict according to the evidence and the law. Ex parte
Taylor, 666 So.2d 73, 82 (Ala. 1995). A juror ‘need not
be excused merely because [the juror] knows something of
the case to be tried or because [the juror] has formed some
opinions regarding it.’ Kinder v. State, 515 So.2d 55, 61
(Ala. Cr. App. 1986). Even in cases where a potential juror
has expressed some preconceived opinion as to the guilt
of the accused, the juror is sufficiently impartial if he or
she can set aside that opinion and render a verdict based
upon the evidence in the case. Kinder, at 60–61,. In order
to justify disqualification, a juror ‘ “must have more than
a bias, or fixed opinion, as to the guilt or innocence of the
accused” ’; ‘ “[s]uch opinion must be so fixed ... that it
would bias the verdict a juror would be required to render.”
’ Oryang v. State, 642 So.2d 979, 987 (Ala. Cr. App. 1993)
(quoting Siebert v. State, 562 So.2d 586, 595 (Ala. Cr. App.
1989) ).
*8 Ex parte Davis, 718 So.2d 1166, 1171-72 (Ala. 1998).
“The test for determining whether a strike rises to the
level of a challenge for cause is ‘whether a juror can set
aside their opinions and try the case fairly and impartially,
according to the law and the evidence.’ Marshall v. State,
598 So.2d 14, 16 (Ala. Cr. App. 1991). ‘Broad discretion
is vested with the trial court in determining whether or
not to sustain challenges for cause.’ Ex parte Nettles, 435
So.2d 151, 153 (Ala. 1983). ‘The decision of the trial court
“on such questions is entitled to great weight and will not
be interfered with unless clearly erroneous, equivalent to
an abuse of discretion.” ’ Nettles, 435 So.2d at 153. In
Marshall v. State, 598 So.2d 14 (Ala. Cr. App. 1991), this
court held that it was not error for a trial court to deny
challenges for cause of two jurors who stated that they
knew the victim or her family. One veniremember had
been employed as a maid by the victim's family and the
other stated that she knew the victim's family. Marshall,
598 So.2d at 16. This court held that this relationship was
not grounds for a challenge for cause as long as the juror
indicates that he or she can be fair and impartial. 598 So.2d
at 16. In the present case, the juror remembered the victim's
face from high school, but was not, and had not been,
personally acquainted with the victim. Therefore, the trial
court did not err in allowing the juror to remain on the jury.

Dunning v. State, 659 So.2d 995, 997 (Ala. Crim. App. 1994).
“Even though a prospective juror may initially admit to
a potential for bias, the trial court's denial of a motion to
strike that person for cause will not be considered error
by an appellate court if, upon further questioning, it is
ultimately determined that the person can set aside his or
her opinions and try the case fairly and impartially, based
on the evidence and the law.”
Ex parte Land, 678 So.2d 224, 240 (Ala. 1996).
Moreover, the Alabama Supreme Court has recognized that
the harmless-error rule applies to a court's refusal to remove
a prospective juror for cause.
“The application of a ‘harmless-error’ analysis to a trial
court's refusal to strike a juror for cause is not new to this
Court; in fact, such an analysis was adopted as early as
1909:
“ ‘The appellant was convicted of the crime of murder in
the second degree. While it was error to refuse to allow
the defendant to challenge the juror C.S. Rhodes for
cause, because of his having been on the jury which had
tried another person jointly indicted with the defendant,
yet it was error without injury, as the record shows that
the defendant challenged said juror peremptorily, and
that, when the jury was formed the defendant had not
exhausted his right to peremptory challenges.’
“Turner v. State, 160 Ala. 55, 57, 49 So. 304, 305 (1909).
However, in Swain v. Alabama, 380 U.S. 202, 219, 85 S.Ct.
824, 13 L.Ed.2d 759 (1965), overruled on other grounds,
Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90
L.Ed.2d 69 (1986), the United States Supreme Court stated,
in dicta, that ‘[t]he denial or impairment of the right is
reversible error without a showing of prejudice.’ (Emphasis
added.) Some decisions of this Court as well as of the
Alabama Court of Criminal Appeals reflect an adoption
of this reasoning. See Dixon v. Hardey, 591 So.2d 3 (Ala.
1991); Knop v. McCain, 561 So.2d 229 (Ala. 1989); Ex
parte Rutledge, 523 So.2d 1118 (Ala. 1988); Ex parte
Beam, 512 So.2d 723 (Ala. 1987); Uptain v. State, 534
So.2d 686, 688 (Ala.Crim.App. 1988) (quoting Swain and
citing Beam and Rutledge); Mason v. State, 536 So.2d 127,
129 (Ala.Crim.App. 1988) (quoting Uptain).
*9 “... [T]his Court has returned to the harmless-error”
analysis articulated in the Ross v. Oklahoma, 487 U.S. 81,
108 S.Ct. 2273, 101 L.Ed.2d 80 (1988), and [United States
v.] Martinez-Salazar, 528 U.S. 304, 120 S.Ct. 774, 145

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Lindsay v. State, --- So.3d ---- (2019)

L.Ed.2d 792 (2000), decisions. Because a defendant has no
right to a perfect jury or a jury of his or her choice, but
rather only to an ‘impartial’ jury, see Ala. Const. 1901, § 6,
we find the harmless-error analysis to be the proper method
of assuring the recognition of that right.
“In this instance, even if the Betheas could demonstrate that
the trial court erred in not granting their request that L.A.C.
be removed from the venire for cause (an issue we do not
reach), they would need to show that its ruling somehow
injured them by leaving them with a less-than-impartial
jury. The Betheas do not proffer any evidence indicating
that the jury that was eventually impaneled to hear this
action was biased or partial. Therefore, the Betheas are not
entitled to a new trial on this basis.”
Bethea v. Springhill Memorial Hospital, 833 So.2d 1, 6-7
(Ala. 2002) (footnotes omitted). See also Calhoun v. State,
932 So.2d 923 (Ala. Crim. App. 2005). Compare General
Motors Corp. v. Jernigan, 883 So.2d 646 (Ala. 2003)
(harmless-error analysis does not apply when the circuit court
erroneously denied five challenges for cause).
With these principles in mind we review the claims raised by
Lindsay concerning the four challenged prospective jurors.

A.

noting that J.H. indicated that his friendship with the district
attorney would not affect his ability to be impartial. (R. 1445.)
“ ‘[The juror's] testimony revealed that he had been
friends with one of the prosecutors for a long time.
Nevertheless, the mere fact of acquaintance is not
sufficient to disqualify a prospective juror if the panel
member asserts that the acquaintance will not affect his
judgment in the case.’
“Carrasquillo v. State, 742 S.W.2d 104, 111 (Tex. App.
1987). See also J.H.B., Relationship to Prosecutor or
Witness for Prosecution as Disqualifying Juror in Criminal
Case, 18 A.L.R. 375 (1922).”
*10 Bohannon v. State, 222 So.3d 457, 478 (Ala. Crim.
App. 2015). The circuit court did not err in denying Lindsay's
motion to remove prospective juror J.H. for cause. Lindsay is
due no relief on this claim.
Moreover, Lindsay used his first peremptory strike to
remove juror J.H., and J.H. did not serve on Lindsay's jury.
Accordingly, any error in failing to remove juror J.H. for
cause was harmless beyond a reasonable doubt. See Bethea
v. Springhill Memorial Hospital, 833 So.2d at 6-7. Lindsay is
due no relief on this claim.

B.
6

Lindsay first argues that prospective juror J.H. should
have been removed for cause because, he says, he had a
longstanding friendship with the district attorney. He said that
they attended the same church and that J.H. had nominated the
district attorney for a city judgeship while J.H. was a member
of the city counsel.
The record indicates that on J.H.'s juror questionnaire he
indicated that he had been to school with defense counsel's
mother and father and that he had known the district attorney
his whole life. The prosecutor first asked J.H. if his friendship
with the district attorney would affect his ability to be
impartial. J.H. stated that it would not. (R. 723.) Defense
counsel then questioned J.H. about whether the fact that he
had gone to school with defense counsel's parents would
affect his ability to be impartial. J.H. said it would not. (R.
767.) Counsel also asked if his friendship with the district
attorney would affect his ability to be impartial. Again, J.H.
indicated that it would not. (R. 768.) At the conclusion of voir
dire, defense counsel moved that prospective juror J.H. be
removed for cause. The circuit court denied the motion after

Next, Lindsay argues that the circuit court erred in failing to
remove prospective juror M.O. for cause because, he says,
she asked not to serve on the jury, she indicated a bias against
people with mental illness, and she said that she had discussed
the case with her coworkers.
Lindsay did not move to remove prospective juror M.O. for
cause; therefore, we review this claim for plain error. See Rule
45A, Ala. R. App. P.
The record shows that M.O. stated on her juror questionnaire
that it would cause her “heartache” to serve on the case.
M.O. also stated during voir dire that “I work with a lot
of workers' comp cases. And I have personally seen faked
injuries. I don't see why people wouldn't fake mental illness as
well.” (R. 1001.) M.O. further stated during voir dire that she
had discussed the case with her coworkers before she became
a member of the venire.
The record shows that when questioned by the prosecutor,
M.O. indicated that she could be impartial, that she would not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Lindsay v. State, --- So.3d ---- (2019)

let her emotions control her verdict, that she had not formed
an opinion about the case, and that her verdict would be based
on the evidence presented in the case. (R. 1118-19.) M.O. was
asked about her experience with workers' compensation cases
and said that it would not influence her. (R. 1001.) The circuit
court did not err in failing to sua sponte remove juror M.O.
for cause. Lindsay is due no relief on this claim.
Moreover, Lindsay used his 12th peremptory strike to remove
prospective juror M.O. for cause. As stated previously, any
error in failing to remove M.O. was harmless based on Bethea
v. Springhill Memorial Hospital. Lindsay is due no relief on
this claim.

The circuit court did not err in failing to sua sponte remove
prospective juror S.T. for cause. See Dunning, supra. Lindsay
is due no relief on this claim.

D.
Lindsay next argues that the circuit court erred in failing to
remove prospective juror L.B. for cause because, he says,
L.B. was a probation officer and he knew the district attorney
and staff and had worked around them for five years.
Lindsay did not challenge L.B. for cause or move that he be
removed for cause. Therefore, we review this claim for plain
error. See Rule 45A, Ala. R. App. P.

C.
Lindsay next argues that the circuit court erred in failing to
sua sponte remove prospective juror S.T. for cause because,
he says, she stated during voir dire that she could not carry
out her duty. (R. 1188.)
Lindsay did not object and request that prospective juror S.T.
be removed for cause. Therefore, we review this claim for
plain error. See Rule 45A, Ala. R. App. P.

Knowing the district attorney is not a ground “supporting
removal for cause under § 12-16-150, Ala. Code 1975.”
Osgood v. State, [Ms. CR-13-1416, October 21, 2016] ––– So.
3d ––––, –––– (Ala. Crim. App. 2016). See also Bohannon v.
State, 222 So.3d at 478. L.B. indicated that his relationship
with the district attorney would not affect his ability to be
impartial. The circuit court did not err in failing to sua sponte
remove prospective juror L.B. for cause.

The voir dire of prospective juror S.T. reads:
“[S.T.]: The thing with me is probably that I don't know
how bad the pictures are. I wouldn't know if I'm elected as
a juror, I really couldn't tell, you know, the nature of the
photos. That's why I may –- That's just a comment I did.
But it wouldn't affect my outcome or opinion towards the
situation and the matter of the case if elected.

E.

“The Court: So, obviously, nobody wants to see anything
difficult.

“Juror C.G. indicated that she did not agree with the
presumption of innocence: ‘the accused should have to
make more of an effort to prove innocence.’ C.G.'s
questionnaire at 10. Two other jurors, J.P. and S.T.,
indicated that the fact that a defendant is charged made
them believe that he is more likely to be guilty. J.P.'s
questionnaire at 12; S.T.'s questionnaire at 12. Additionally,
Juror E.L. indicated that she would automatically impose
the death penalty for a person convicted of killing a
child under age five, but was never questioned about this
on individual voir dire. E.L.'s questionnaire at 15. The
inclusion of biased veniremembers on the jury violated Mr.
Lindsay's right to an impartial jury.”
(Lindsay's brief, at pp. 77-78.)

“[S.T.]: Right.
“The Court: If you did have to see pictures in this case that
would be hard for you or difficult for you, would you be
able to perform your duties in this case?
*11 “[S.T.]: Yes.”
(R. 1347-48.) S.T. stated that the photographs would not
prevent her from performing her duties as a juror. Also, the
circuit court at the conclusion of the court's questions during
voir dire asked the veniremembers: “Is there any juror who
knows anything about the case that would influence your
verdict in any way?” No juror responded. (R. 471.)

Last, Lindsay argues that his jury included four jurors who
were biased against him -– C.G., S.T., E.L., and J.P. –- in
violation of his right to be tried by an impartial jury. Lindsay's
entire argument on this issue states:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Lindsay v. State, --- So.3d ---- (2019)

“A defendant is ‘entitled to be tried by 12, not 9 or even 10
impartial and unprejudiced jurors.’ ” Ex parte Killingsworth,
82 So.3d 761, 764 (Ala. 2010), quoting, in part, Parker v.
Gladden, 385 U.S. 363, 87 S.Ct. 468, 17 L.Ed.2d 420 (1966).
However, as the State correctly argues, each of the abovechallenged jurors stated on his or her juror questionnaire that
they could follow the court's instructions and be fair and
impartial. Also, the voir dire conducted by the circuit court
shows that all of the prospective jurors were asked if they
knew “anything about the case that would influence [their]
verdict in any way?” (R. 471.) No juror responded in the
affirmative to this question. The record does not suggest that
Lindsay was tried by a jury on which four biased jurors sat.
Lindsay is due no relief on this claim.

IV.
*12 Lindsay next argues that the record establishes a prima
facie case of racial discrimination in the selection of his jury
in violation of Batson v. Kentucky, 476 U.S. 79, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986). Specifically, he argues that the
case should be remanded to the Etowah Circuit Court for that
court to conduct a Batson hearing.
The United States Supreme Court in Batson held that it was
a violation of the Equal Protection Clause of the United
States Constitution to strike a black individual from a black
defendant's jury based solely on his or her race. This holding
was extended to white defendants in Powers v. Ohio, 499
U.S. 400, 111 S.Ct. 1364, 113 L.Ed.2d 411 (1991); to defense
counsel in criminal cases in Georgia v. McCollum, 505 U.S.
42, 112 S.Ct. 2348, 120 L.Ed.2d 33 (1992); and to genderbased claims in J.E.B. v. Alabama, 511 U.S. 127, 114 S.Ct.
1419, 128 L.Ed.2d 89 (1994). The Alabama Supreme Court
extended this holding to white prospective jurors in White
Consolidated Industries, Inc. v. American Liberty Insurance,
Inc., 617 So.2d 657 (Ala. 1993).
In this case, Lindsay did not make a Batson objection after
the peremptory strikes were completed. Thus, we review this
issue for plain error. See Rule 45A, Ala. R. App. P.
“To find plain error in the Batson [v. Kentucky, 476 U.S.
79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986),] context, we first
must find that the record raises an inference of purposeful
discrimination by the State in the exercise of its peremptory
challenges. E.g., Saunders v. State, 10 So.3d 53, 78 (Ala.
Crim. App. 2007). Where the record contains no indication

of a prima facie case of racial discrimination, there is no
plain error. See, e.g., Gobble v. State, 104 So.3d 920, 949
(Ala. Crim. App. 2010).”
Henderson v. State, 248 So.3d 992, 1016 (Ala. Crim. App.
2017).
Alabama appellate courts have rarely found plain error in the
Batson context. Indeed, on numerous occasions this Court
has declined to find plain error based on an undeveloped and
cold record. See Gaston v. State, [Ms. CR-15-0317, March
16, 2018] ––– So. 3d –––– (Ala. Crim. App. 2018); Russell v.
State, [Ms. CR-13-0513, September 8, 2017] ––– So. 3d ––––
(Ala. Crim. App. 2017); Floyd v. State, [Ms. CR-13-0623,
July 7, 2017] ––– So. 3d –––– (Ala. Crim. App. 2017);
Henderson v. State, 248 So.3d 992 (Ala. Crim. App. 2017);
Osgood v. State, [Ms. CR-13-1416, October 21, 2016] ––– So.
3d –––– (Ala.Crim.App. 2016)); Largin v. State, 233 So.3d
374 (Ala. Crim. App. 2015); Townes v. State, 253 So.3d
447 (Ala. Crim. App. 2015); Bohannon v. State, 222 So.3d
457 (Ala. Crim. App. 2015); Luong v. State, 199 So.3d 173
(Ala. Crim. App. 2015); White v. State, 179 So.3d 170 (Ala.
Crim. App. 2013); Lockhart v. State, 163 So.3d 1088 (Ala.
Crim. App. 2013); McMillan v. State, 139 So. 2d 184 (Ala.
Crim. App. 2010); Gobble v. State, 104 So.3d 920 (Ala. Crim.
App. 2010); Sharifi v. State, 993 So.2d 907 (Ala. Crim. App.
2008).7
“ ‘A defendant makes out a prima facie case of
discriminatory jury selection by “the totality of the relevant
facts” surrounding a prosecutor's conduct during the
defendant's trial.’ Lewis v. State, 24 So.3d 480, 489
(Ala. Crim. App. 2006) (quoting Batson, 476 U.S. at
94, 106 S.Ct. 1712, aff'd, 24 So.3d 540 (Ala. 2009). ‘In
determining whether there is a prima facie case, the court
is to consider “all relevant circumstances” which could
lead to an inference of discrimination.’ Ex parte Branch,
526 So.2d [609] at 622 [ (Ala. 1987) ] (citing Batson,
476 U.S. at 93, 106 S.Ct. 1712, citing in turn Washington
v. Davis, 426 U.S. 229, 96 S.Ct. 2040, 48 L.Ed.2d 597
(1976) ). In Ex parte Branch, the Alabama Supreme Court
specifically set forth a number of ‘relevant circumstances’
to consider in determining whether a prima facie case of
race discrimination has been established:
*13 “ ‘The following are illustrative of the types of
evidence that can be used to raise the inference of
discrimination:
“ ‘1. Evidence that the “jurors in question shared]
only this one characteristic --their membership in the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Lindsay v. State, --- So.3d ---- (2019)

group –- and that in all other respects they [were] as
heterogeneous as the community as a whole.” [People v.]
Wheeler, 22 Cal.3d [258] at 280, 583 P.2d [748] at 764,
148 Cal.Rptr. [890] at 905 [ (1978) ]. For instance “it may
be significant that the persons challenged, although all
black, include both men and women and are a variety of
ages, occupations, and social or economic conditions,”
Wheeler, 22 Cal. 3d at 280, 583 P.2d at 764, 148
Cal.Rptr. at 905, n. 27, indicating that race was the
deciding factor.
“ ‘2. A pattern of strikes against black jurors on the
particular venire; e.g., 4 of 6 peremptory challenges were
used to strike black jurors. Batson, 476 U.S. at 97, 106
S.Ct. at 1723.
“ ‘3. The past conduct of the state's attorney in using
peremptory challenges to strike all blacks from the jury
venire. Swain [v. Alabama, 380 U.S. 202, 85 S.Ct. 824,
13 L.Ed.2d 759 (1965) ].
“ ‘4. The type and manner of the state's attorney's
questions and statements during voir dire, including
nothing more than desultory voir dire. Batson, 476 U.S.
at 97, 106 S.Ct. at 1723; Wheeler, 22 Cal.3d at 281, 583
P.2d at 764, 148 Cal.Rptr. at 905.
“ ‘5. The type and manner of questions directed to the
challenged juror, including a lack of questions, or a lack
of meaningful questions. Slappy v. State, 503 So.2d 350,
355 (Fla. Dist. Ct. App. 1987); People v. Turner, 42
Cal. 3d 711, 726 P.2d 102, 230 Cal.Rptr. 656 (1986);
People v. Wheeler, 22 Cal.3d 258, 583 P.2d 748, 764,
148 Cal.Rptr. 890 (1978).
“ ‘6. Disparate treatment of members of the jury venire
with the same characteristics, or who answer a question
in the same or similar manner; e.g., in Slappy, a
black elementary school teacher was struck as being
potentially too liberal because of his job, but a white
elementary school teacher was not challenged. Slappy,
503 So.2d at 352 and 355.
“ ‘7. Disparate examination of members of the venire;
e.g., in Slappy, a question designed to provoke a certain
response that is likely to disqualify a juror was asked to
black jurors, but not to white jurors. Slappy, 503 So.2d
at 355.
“ ‘8. Circumstantial evidence of intent may be proven
by disparate impact where all or most of the challenges

were used to strike blacks from the jury. Batson, 476 U.S.
at 93, 106 S.Ct. at 1721; Washington v. Davis, 426 U.S.
[229] at 242, 96 S.Ct. [2040] at 2049, 48 L.Ed.2d 597
[ (1976) ].
“ ‘9. The state used peremptory challenges to dismiss
all or most black jurors. See Slappy, 503 So.2d at 354,
Turner, supra.’
“Id. at 622–23. In Ex parte Trawick, 698 So.2d 162 (Ala.
1997), the Court reiterated the Ex parte Branch factors in a
manner applicable to gender as follows:
“ ‘(1) evidence that the jurors in question shared only the
characteristic of gender and were in all other respects as
heterogenous as the community as a whole; (2) a pattern
of strikes against jurors of one gender on the particular
venire; (3) the past conduct of the state's attorney in
using peremptory challenges to strike members of one
gender; (4) the type and manner of the state's questions
and statements during voir dire; (5) the type and manner
of questions directed to the challenged juror, including a
lack of questions; (6) disparate treatment of members of
the jury venire who had the same characteristics or who
answered a question in the same manner or in a similar
manner; and (7) separate examination of members of the
venire. Additionally, the court may consider whether the
State used all or most of its strikes against members of
one gender.’
*14 “698 So.2d at 168.”
White v. State, 179 So.3d at 199-200.
Here, the record shows that after some prospective jurors were
excused for undue hardship 78 prospective jurors remained on
the venire. The State and the defense each had 33 peremptory
strikes. The State used 8 of its 33 strikes to remove black
prospective jurors -- its 3rd, 5th, 7th, 13th, 18th, 23rd, 26th,
and 31st strikes -- to remove black prospective jurors K.D.,
D.B., J.C., C.S., S.B., D.M., D.H., and K.D. Lindsay used
32 of his 33 strikes to remove white prospective jurors. The
defense used its last strike to remove a black prospective juror.
Lindsay's jury was composed of 6 black jurors and 6 white
jurors. Of the three alternates, two were black and one was
white.
The voir dire in this case was extensive. It consists of almost
1,000 pages of the certified record on appeal. (R. 455-1437.)
The jurors also completed an 18-page juror questionnaire
that contained 80 questions. There is no indication from

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Lindsay v. State, --- So.3d ---- (2019)

the extensive voir dire examination that the State unfairly
targeted black prospective jurors in its questioning. Indeed,
the opposite is true.
We have thoroughly examined the voir dire and the juror
questionnaires. Juror K.D. stated during voir dire examination
that she had moral or religious reservations about the death
penalty. (R. 1176, 1364.) Juror D.B. stated during voir dire
that she did not think that she could vote for the death
penalty. (R. 519.) Also, on D.B.'s questionnaire she wrote
that the death penalty did not fix any problems and that
she would automatically vote for life imprisonment without
parole. Juror J.C. stated in her questionnaire that her brother
had been convicted of rape. Juror C.S. indicated on her
questionnaire that her son had been convicted of possession
of marijuana and that she would automatically vote for
life imprisonment without parole. Juror S.B. stated on her
questionnaire that she would automatically vote for life
imprisonment without parole and that the death penalty was
imposed too randomly. Juror D.M. stated on her questionnaire
that she could not say how she felt about the death penalty.
Juror D.H. stated on her questionnaire that she had family
members or close friends who had been convicted and that
she would automatically vote for life imprisonment without
parole. Juror K.D. stated on her questionnaire that she had
family members or close friends who had been convicted and
that she would automatically vote for life imprisonment.
“The above reasons, which are readily discernible from
the record, were all race-neutral reasons. ‘The fact that
a family member of the prospective juror has been
prosecuted for a crime is a valid race-neutral reason.’
Yelder v. State, 596 So.2d 596, 598 (Ala. Crim. App. 1991).
‘[A] veniremember's connection with or involvement in
criminal activity may serve as a race-neutral reason
for striking that veniremember.’ Wilsher v. State, 611
So.2d 1175, 1183 (Ala. Crim. App. 1992). ‘ “That a
veniremember has reservations about the death penalty,
though not sufficient for a challenge for cause, may
constitute a race-neutral and reasonable explanation for the
exercise of a peremptory strike.” ’ Fisher v. State, 587
So.2d 1027, 1036 (Ala. Crim. App. 1991).
*15 Bohannon v. State, 222 So.3d 457, 482 (Ala. Crim. App.
2015).
Lindsay also argues that the Etowah County District
Attorney's Office has a long history of discrimination in the
selection of juries. It cites a 1996 case, State v. Williams, 679
So.2d 275 (Ala. Crim. App. 1996), and a 1987 case, Turner

v. State, 521 So.2d 93 (Ala. Crim. App. 1987), in support of
that argument. However, this Court has stated:
“Although Bohannon contends that there is a long history
of racial discrimination by the Mobile County District
Attorney's Office in striking juries, the most recent case
cited by Bohannon in his brief in making this claim is a
1999 case. Despite Bohannon's contention that the district
attorney's office has a long history of striking jurors based
on race, ‘this was not reflected in, or indicated by, the
record. See Sharifi v. State, 993 So.2d 907, 928 (Ala. Crim.
App. 2008) (no inference from the record of discriminatory
use of peremptory challenges by the prosecutor despite
Sharifi's argument that Madison County has a long history
of violating Batson and that the number of strikes used by
the State indicated prejudice).’ Dotch v. State, 67 So.3d
936, 982 (Ala. Crim. App. 2010). See also McMillan v.
State, 139 So.3d [184] at 205 [ (Ala. Crim. App. 2010) ].”
Bohannon, 222 So.3d at 483.
Based on this Court's review of the record, we cannot say that
Lindsay has proven a prima facie case of racial discrimination
in the prosecutor's strikes of black prospective jurors. See
Henderson, supra. Lindsay is due no relief on this claim.

V.
Lindsay next argues that his statements to police should
have been suppressed because, he says, they were obtained
in violation of state and federal law. Specifically, he argues
that his initial statement was unlawfully admitted because
he was not read his Miranda8 rights and that his subsequent
confession was coerced because of his mental state.

A.
Lindsay first contends that when police first spoke with him
they asked him about Maliyah before reading him his Miranda
rights. Lindsay responded to the police inquiry that Maliyah
was not okay and that she not alive. The State argues that
Lindsay's statements were admissible because they fell within
the “public safety” exception to the Miranda requirements.
Lindsay did not challenge his statements to police at trial;
therefore, we review this claim for plain error. See Rule 45A,
Ala. R. App. P.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Lindsay v. State, --- So.3d ---- (2019)

In discussing the public-safety exception to Miranda
requirements, this Court has stated:
“[T]his case falls within the narrow scope of the ‘public
safety’ exception and the related ‘emergency’ or ‘rescue’
exception. See 3 W. Rigel, Searches and Seizures, Arrests
and Confessions § 26.5(d) at 26–30 through 26–32 (2d ed.
1993); 1 W. LaFave, Criminal Procedure § 6.7 at 506–
09 (1984) and at 115–17 (Supp. 1991). See New York v.
Quarles, 467 U.S. 649, 104 S.Ct. 2626, 81 L.Ed.2d 550
(1984) (police may, in swiftly developing circumstances,
ask questions reasonably prompted by considerations of
public safety without violating Miranda). ‘[Q]uestions
aimed at the safety or rescue of another person are
not considered interrogation, although responses to the
questioning might be highly incriminating.’ 3 Rigel §
27.4(b) at 27–31—27–32. See also State v. Vickers, 159
Ariz. 532, 768 P.2d 1177 (1989), cert. denied, 497 U.S.
1033, 110 S.Ct. 3298, 111 L.Ed.2d 806 (1990). Here,
Officer Joiner's question to the appellant was not designed
to elicit any incriminating response but was asked solely
for the purpose of determining whether the appellant was
injured.
*16 “Furthermore, we note that ‘ “[g]eneral on-the-scene
questioning as to facts surrounding a crime or other general
questioning of citizens in the factfinding process” ’ does
not require compliance with Miranda. Lemley v. State, 599
So.2d 64 (Ala. Cr. App. 1992). ‘Miranda does not prevent
traditional investigatory functions such as general onthe-scene questioning; general on-the-scene questioning
of a suspect does not constitute interrogation for Fifth
Amendment purposes.’ Hubbard v. State, 500 So.2d 1204,
1224 (Ala. Cr. App.), affirmed, 500 So.2d 1231 (Ala.
1986), cert. denied, 480 U.S. 940, 107 S.Ct. 1591, 94
L.Ed.2d 780 (1987). Accord Bui v. State, 551 So.2d 1094,
1108 (Ala. Cr. App. 1988), affirmed, 551 So.2d 1125 (Ala.
1989), vacated on other grounds, 499 U.S. 971, 111 S.Ct.
1613, 113 L.Ed.2d 712 (1991) (officer's asking appellant
about his children, whose corpses, along with the murder
weapon, were on the bed next to appellant, was in the nature
of general on-the-scene investigation and, thus, statement
was admissible even though the appellant had not been read
his Miranda rights); Jackson v. State, 412 So.2d 302, 306–
07 (Ala. Cr. App. 1982) (Miranda warnings not required
when officers who were conducting general on-the-scene
investigation of recent homicide asked, ‘What happened?’
and accused gave incriminating response). See also Lemley
v. State, 599 So.2d 64, 71 (Ala. Cr. App. 1992); Fisher v.
State, 587 So.2d 1027, 1038 (Ala. Cr. App.), cert. denied,

587 So.2d 1039 (Ala. 1991), cert. denied, 503 U.S. 941,
112 S.Ct. 1486, 117 L.Ed.2d 628 (1992).
Smith v. State, 646 So.2d 704, 708 (Ala. Crim. App. 1994).
The United States Supreme Court has recognized that:
“concerns for public safety must be paramount to adherence
to the literal language of the prophylactic rules enunciated
in Miranda.” New York v. Quarles, 467 U.S. 649, 653, 104
S.Ct. 2626, 81 L.Ed.2d 550 (1984). See Benson v. State,
698 So.2d 333, 335 (Fla. 4th Dist. 1997) (“Since Quarles,
however, several state and federal courts have addressed and
applied the ‘public safety’ exception to Miranda in a variety
of circumstances, including concern for the safety of victims
and police officers.”); Trice v. United States, 662 A.2d 891,
897 (D.C. 1995) (“A refusal to apply the exception in this case
would effectively penalize the government because [police] ...
asked a question reasonably prompted by a concern for the
well being of small children.”).
We agree with the State that the public-safety exception
applies to the circumstances in this case. A 21-monthold child had been missing for 6 days and police were
concerned for the child's welfare. Accordingly, the statements
that Lindsay made when police first approached him were
admissible without benefit of Miranda warnings. There is no
error, much less plain error, in the admission of Lindsay's
initial statement to police. Lindsay is due no relief on this
claim.

B.
Lindsay next argues that his confession made at the police
station after he was read his Miranda rights was involuntary
because of his mental condition.
This issue was not presented to the circuit court; therefore,
we review this claim for plain error. See Rule 45A, Ala. R.
App. P.
“An accused's alleged mental condition alone will not
prevent a statement from correctly being received into
evidence at trial. As this court has stated:
“ ‘The Alabama courts have recognized that subnormal
tendencies of the accused are but one factor to review
in the totality of the circumstances surrounding the
confession. See McCord v. State, 507 So.2d 1030 (Ala.
Cr. App. 1987); Sasser v. State, 497 So.2d 1131 (Ala.
Cr. App. 1986); Corbin v. State, 412 So.2d 299 (Ala. Cr.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Lindsay v. State, --- So.3d ---- (2019)

App. 1982). For a more in-depth discussion of this point,
see, 23 A.L.R. 4th 493, 8 A.L.R.4th 16.
“ ‘Judge Bowen, speaking for this court in Corbin, supra,
412 So.2d at 301, stated:
“ ‘ “Mental ‘subnormality’ does not in and of itself
render a confession involuntary. Parker v. State,
351 So.2d 927 (Ala. Cr. App.), cert. quashed, 351
So.2d 938 (Ala. 1977); Arnold v. State, 348 So.2d
1092 (Ala. Cr. App.), cert. denied, 348 So.2d 1097
(Ala. 1977). The mere fact that the defendant was
simpleminded or ‘functionally illiterate’ will not
vitiate the voluntariness of his confession.” ’
*17 Wheeler v. State, 659 So.2d 1032, 1034 (Ala. Crim.
App. 1995) quoting Harkey v. State, 549 So.2d 631, 633
(Ala. Crim. App. 1989). “Except in the most extreme cases,
the mental abnormality of the accused is just one factor
which must be considered in determining from the totality
of the circumstances the voluntariness and admissibility of a
confession.” Corbin v. State, 412 So.2d 299, 301 (Ala. Crim.
App. 1982).
We have examined the videotape of Lindsay's confession.
(State's exhibit 25.) In the videotape, Lindsay appears calm
and controlled. The videotape shows Lindsay in a small
interview room sitting on a chair against the wall with his
left arm handcuffed and the handcuff secured to the wall. At
no time in the videotape did Lindsay appear aggressive or
agitated, and he was articulate and respectful to the officers.
Lindsay was advised of his Miranda rights and voluntarily
signed the waiver-of-rights form. Lindsay confessed that he
killed Maliyah because Yahweh told him to get rid of her, that
it was hard for him to kill her, and that he is “not crazy and
did not just go off the deep end.” Lindsay was able to tell
police specifics of what occurred the entire day on the day
he murdered Maliyah. This is not one of those extreme cases
where Lindsay's mental condition rendered his confession
involuntary. Lindsay's confession was correctly received into
evidence irrespective of his mental health. Lindsay is due no
relief on this claim.

with Lindsay began, and to ask Thomas if Lindsay had ever
sold drugs. He asserts that the questions implied that he had
a history of prior criminal activity.
The record shows that before trial Lindsay made a motion
in limine seeking to prohibit the State from introducing any
evidence of Lindsay's prior bad acts. (C. 87-89.) The circuit
court reserved ruling on the motion until specific evidence
was introduced at trial. (R. 439.) Lindsay argues that the
following questions to Thomas violated the motion in limine.
During Thomas's testimony, the prosecutor questioned
Thomas about whether Lindsay had a temper:
“[Prosecutor]: During the time that you and [Lindsay] lived
together did he have a temper?
“[Thomas]: Yes.
“[Prosecutor]: And did he ever act out on his temper?
“[Thomas]: Yes.
“[Prosecutor]: Was he ever violent with you?
“[Thomas]: Yes.
“[Defense counsel]: Your Honor, I'm going to -“....
“The Court: My understanding regarding prior acts and
things of that nature we were going to discuss that
outside the presence of the jury before we put that up.
“[Prosecutor]: I'm sorry, Judge. I didn't do that on
purpose.
“The Court: Okay. Your objection?
“[Defense counsel]: I object to any line of questioning
regarding any violent acts or physical arguments.
“The Court: State?
“[Prosecutor]: I do believe the nature of their defense at
some point in time in this trial is going to open the door -–

VI.
Lindsay next argues that the circuit court erred in failing to sua
sponte give instructions to the jury when certain evidence was
admitted during Thomas's testimony. Specifically, he argues
that it was error for the prosecutor to ask Thomas if Lindsay
had ever been violent, to ask Thomas when her relationship

“....
“The Court: At this point in time, sustain, at this time,
with the understanding that if anything changes in regard
to the opening of -– we will come back before the Court.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Lindsay v. State, --- So.3d ---- (2019)

*18 “[Prosecutor]: I need to clarify something.
“Judge, part of the thing is that he did have a temper and,
I mean, am I allowed to ask about his temper or I'm not
supposed to ask that?
“....

“[Prosecutor]: Did Stephon smoke marijuana at your
house?
“[Thomas]: Yes.
“[Prosecutor]: Did you see marijuana in your house?
“[Thomas]: Yes.

“The Court: I don't have a problem with temper, but
going into specific acts and things like that.”
(R. 1545-49.) The circuit court sustained the objection and
did not allow the prosecutor to go into any specific bad acts.
Lindsay did not request a limiting instruction.
Lindsay also argues that the court should have sua sponte
given an instruction to the jury when the following occurred:
“[Prosecutor]: How old were you when you first met
Stephon Lindsay?
“[Thomas]: Seventeen.
“[Prosecutor]: Do you remember about when it was when
you first met him?
“[Thomas]: September of 2011. I think.
“[Prosecutor]: And did the two of you start talking to each
other at that time throughout the relationship?
“[Thomas]: Like, as friends, yes. Yes, but anything else, no.
“[Prosecutor]: At some point after that did you get into a
relationship where he was your boyfriend?
“[Thomas]: Yes.
“[Prosecutor]: And do you know about how long of a time
passed before that happened?
“[Thomas]: Nine months.”
(R. 1538-39.) As the State argues § 13A-6-62, Ala. Code.
1975, defines the offense of second-degree rape as having
sexual relations with a member of the opposite sex when that
person is over the age of 12 and less than 16 years of age.
Thomas did not testify that she had a romantic relationship
with Lindsay when she was 16 or younger.
Last, Thomas argues that the following testimony was
prejudicial:

“[Prosecutor]: Were you ever aware of any other ways that
Stephon was trying to make money?
“[Thomas]: I was told that he was selling -“[Defense counsel]: Your Honor, I think she said she
heard.
“The Court: Overrule. I believe she said told. Sustain.
“[Prosecutor]: Did Stephon tell you he was selling drugs?
“[Thomas]: No.”
(R. 1554-55.) The circuit court sustained the objection and
Lindsay did not request a jury instruction. Also, Dr. Bare
testified during his direct examination by defense counsel
that Lindsay told him that he had been using marijuana and
cocaine heavily around the time of the murder.
“Giving a curative instruction regarding the fleeting remark
may have drawn more unwanted attention to the remark.”
Wilson v. State, 142 So.3d 732, 815 (Ala. Crim. App. 2010).
Moreover,
“[The defendant], himself, confessed to his participation in
Walker's murder, and Walker's property was found in [the
defendant's] house. Under the facts of this case, this Court
cannot say that the circuit court's failure to give a curative
instruction adversely affected the outcome of the trial, Ex
parte Walker, 972 So.2d 737, 752 (Ala. 2007), or was
‘so egregious ... that [it] seriously affected] the fairness,
integrity or public reputation of judicial proceedings.’ Ex
parte Price, 725 So.2d 1063, 1071–72 (Ala. 1998).”
142 So.3d at 815.
Here, Lindsay confessed to murdering Maliyah and gave
a detailed account of what he had done to her body.
Indeed, police found Maliyah's body after Lindsay told them
where they could locate it. We cannot say that the circuit
court's failure to give a limiting instruction on the testimony
elicited during Thomas's examination affected the fairness

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Lindsay v. State, --- So.3d ---- (2019)

and integrity of the judicial proceedings. See Wilson and Rule
45A, Ala. R. App. P.
*19 Moreover, the harmless-error rule applies to deathpenalty cases. See Ex parte Brownfield, 44 So.3d 43 (Ala.
2009).
“In [Ex parte] Wilson, [571 So.2d 1251 (Ala. 1990),] this
Court, quoting Chapman [v. California], 386 U.S. [18] at
24, 87 S.Ct. [824] at 828, 17 L.Ed.2d 705 [ (1967) ], stated
that ‘ “before a federal constitutional error can be held
harmless, the court must be able to declare a belief that it
was harmless beyond a reasonable doubt.” ’ 571 So.2d at
1264. Applying that rule of law to the facts of this case,
we conclude, as did the Court of Criminal Appeals, that
the record shows that the evidence of guilt is ‘virtually
ironclad’; therefore, we agree with the Court of Criminal
Appeals that [the error] did not affect the outcome of the
trial or otherwise prejudice [the appellant's] right to a fair
trial.
Ex parte Greathouse, 624 So.2d 208, 211 (Ala. 1993). We
are confident that admission of the above-cited testimony
was harmless beyond a reasonable doubt. See Chapman v.
California. Lindsay is due no relief on this claim.

VII.
Lindsay next argues that the circuit court erred in admitting
two swords into evidence, State's exhibits no. 11 and no. 12,
because, he says, they were irrelevant and highly prejudicial.
The record shows that Lindsay told police where he had
disposed of the body, an axe, and several swords.9 When the
State sought to introduce the two swords that were discovered
Lindsay objected and argued that the swords were not relevant
because, he said, they were not the weapons used in the
murder. (R. 1575.) The State argued:
“Your Honor, these are weapons that [Lindsay] kept that he
pulled out and showed to people routinely that he disposed
of along with the murder weapon. We expect [Thomas] to
testify that she had seen the hatchet or axe that he talked
about killing the baby with. Unfortunately law enforcement
wasn't able to recover that, but we did recover these and
we recovered them at the direction of [Lindsay] showing
where they were.”
(R. 1576.) The circuit court allowed the swords to be admitted
into evidence. (R. 1576.)

“Alabama courts have repeatedly held that the trial court
has broad discretion in determining the admissibility of
evidence, and that the trial court's determination will not
be reversed unless the court has abused its discretion. E.g.,
Gavin v. State, 891 So.2d 907, 963 (Ala. Crim. App. 2003).
Rule 402, Ala. R. Evid., states that all relevant evidence
is admissible, unless otherwise precluded by law. Rule
401, Ala. R. Evid., defines relevant evidence as ‘evidence
having any tendency to make the existence of any fact
that is of consequence to the determination of the action
more probable or less probable than it would be without
the evidence.’ As with the determination of admissibility,
trial courts have broad discretion in determining whether
evidence is relevant, and a court's determination will not
be reversed unless the decision constituted an abuse of
discretion. Gavin at 963,.”
Yeomans v. State, 898 So.2d 878, 894 (Ala. Crim. App. 2004).
*20 The coroner testified that the murder weapon was
something “that had a sharp edge, like that of a knife or
something -– it could be larger, but you have to have a sharp
edge like a machete or axe or something like that which has
to have a sharp edge.” (R. 1786.) Lindsay first stated in his
confession that he killed Maliyah with a knife but later in the
confession said that he used an axe. There was no forensic
testimony that identified the actual murder weapon.
“Rule 402, Ala. R. Evid., provides that ‘[a]ll relevant
evidence is admissible, except as otherwise provided by
the Constitution of the United States or that of the State
of Alabama, by statute, by these rules, or by other rules
applicable in the courts of this State.’ Rule 401, Ala.
R. Evid., defines ‘relevant evidence’ as ‘evidence having
any tendency to make the existence of any fact that is
of consequence to the determination of the action more
probable or less probable than it would be without the
evidence.’ ‘Alabama recognizes a liberal test of relevancy,
which states that evidence is admissible “if it has any
tendency to lead in logic to make the existence of the
fact for which it is offered more or less probable than it
would be without the evidence.” ’ Hayes [v. State], 717
So.2d [30] at 36 [ (Ala. Crim. App. 1997) ], quoting C.
Gamble, Gamble's Alabama Evidence § 401(b). ‘[A] fact
is admissible against a relevancy challenge if it has any
probative value, however[ ] slight, upon a matter in the
case.’ Knotts v. State, 686 So.2d 431, 468 (Ala. Crim.
App. 1995), aff'd, 686 So.2d 486 (Ala. 1996). Relevant
evidence should be excluded only ‘if its probative value is
substantially outweighed by the danger of unfair prejudice,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Lindsay v. State, --- So.3d ---- (2019)

confusion of the issues, or misleading the jury, or by
considerations of undue delay, waste of time, or needless
presentation of cumulative evidence.’ Rule 403, Ala. R.
Evid. ‘The general rule is that articles which are properly
identified and which tend to show the commission of
the crime or the manner in which it was committed or
elucidate some matter in issue are admissible in evidence
for inspection and observation by the jury.’ Beasley v.State,
408 So.2d 173, 179 (Ala. Crim. App. 1981).
Gavin v. State, 891 So.2d 907, 963-64 (Ala. Crim. App.
2003).
The circuit court did not abuse its considerable discretion
in admitting the weapons discovered near the victim's body.
Lindsay is due no relief on this claim.

VIII.
Lindsay argues that the circuit court erred in admitting
autopsy photographs of the victim into evidence because,
he says, they were cumulative and more prejudicial than
probative. Specifically, Lindsay challenges the admission of
State's exhibit nos. 42-46 and 128 through 153.10
The record shows that, during the testimony of Conduce
Grimes, a crime-scene technician, the State introduced
photographs marked as exhibits nos. 42-46. The State argued:
“They do show different aspects of the injury to the neck,
it does show the relation of those injuries to other injuries
on the body, that being the injury to the chest. And show
different perspectives of the wound. We think it's important
not -– I mean, the photographs that we have agreed to are
shocking enough. But these do show -– we do need to
document -– given the severity of the injury to the neck, we
do need to show that there was no change in the aspect of
the injury between the time the body was initially recovered
and the time the body went for autopsy.”
*21 (R. 1656.) Lindsay argued that the photographs were
duplicative and would “inflame and enrage -– inflame the
jury.” (R. 1657.) The circuit court allowed the photographs to
be admitted. (R. 1659.)
The record also shows that during Dr. Valerie Green's
testimony, the State sought to introduce State's exhibit
nos. 128 through 153, “excluding 145 and 137,” which it
withdrew. The State asserted that those photographs were
necessary for Dr. Green to render her opinion concerning the

victim's cause of death and her injuries. (R. 1766.) Lindsay
objected and argued that the photographs were cumulative
and would inflame the jury. The circuit court allowed the
photographs to be admitted into evidence. (R. 1766.)
“ ‘Alabama courts have held on many occasions that
photographs of the crime scene and the victims are
admissible, even though they might be gruesome and
cumulative, if they shed light on an issue being tried. E.g.,
Baird v. State, 849 So.2d 223, 246 (Ala. Crim. App. 2002).’
McGahee v. State, 885 So.2d 191, 214 (Ala. Crim. App.
2003).”
Blackmon v. State, 7 So.3d 397, 449 (Ala. Crim. App. 2005).
“Photographic evidence is admissible in a criminal
prosecution if it tends to prove or disprove some disputed or
material issue, to illustrate some relevant fact or evidence,
or to corroborate or dispute other evidence in the case.
Photographs that tend to shed light on, to strengthen, or
to illustrate other testimony presented may be admitted
into evidence. Chunn v. State, 339 So.2d 1100, 1102
(Ala. Cr. App. 1976). To be admissible, the photographic
material must be a true and accurate representation of
the subject that it purports to represent. Mitchell v.
State, 450 So.2d 181, 184 (Ala. Cr. App. 1984). The
admission of such evidence lies within the sound discretion
of the trial court. Fletcher v. State, 291 Ala. 67, 277
So.2d 882, 883 (1973); Donahoo v. State, 505 So.2d
1067, 1071 (Ala. Cr. App. 1986) (videotape evidence).
Photographs illustrating crime scenes have been admitted
into evidence, as have photographs of victims and their
wounds. E.g., Hill v. State, 516 So.2d 876 (Ala. Cr. App.
1987). Furthermore, photographs that show the external
wounds of a deceased victim are admissible even though
the evidence is gruesome and cumulative and relates to
undisputed matters. E.g., Burton v. State, 521 So.2d 91
(Ala. Cr. App. 1987). Finally, photographic evidence, if
relevant, is admissible even if it has a tendency to inflame
the minds of the jurors. Hutto v. State, 465 So.2d 1211,
1212 (Ala. Cr. App. 1984).”
Ex parte Siebert, 555 So.2d 780, 783-84 (Ala. 1989).
“ ‘Courts and juries cannot be squeamish about
looking at unpleasant things, objects or circumstances
in proceedings to enforce the law and especially if truth
is on trial. The mere fact that an item of evidence is
gruesome or revolting, if it sheds light on, strengthens,
or gives character to other evidence sustaining the issues
in the case, should not exclude it.’ ”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

Lindsay v. State, --- So.3d ---- (2019)

Gwin v. State, 425 So.2d 500, 508 (Ala. Crim. App. 1982),
quoting Baldwin v. State, 282 Ala. 653, 656, 213 So.2d 819
(1968).
The circuit court did not abuse its considerable discretion
in allowing the photographs to be received into evidence.
Lindsay is due no relief on this claim.

IX.
*22 Lindsay next argues that it was error to allow Dr. Bare
to testify concerning his opinion of Lindsay's mental state at
the time of the murder, his opinion of Lindsay's competency
to stand trial, and his opinion of Lindsay's religious beliefs.

A.
First, Lindsay argues that the circuit court erred in allowing
Dr. Bare to testify regarding his opinion of Lindsay's mental
state at the time of the murder. Lindsay argues that Dr. Bare
could not testify about his mental state because, he says,
that evidence embraced the ultimate matter at issue and was
inadmissible under Rule 704, Ala. R. Evid. Rule 704, Ala.
R. Evid., provides: “Testimony in the form of an opinion or
inference otherwise admissible is to be excluded it if embraces
an ultimate issue to be decided by the trier of fact.”
The record shows that during Dr. Bare's cross-examination by
the prosecutor, the following occurred:
“[Prosecutor]: Dr. Bare, you talked with Mr. Lindsay for
six and a half hours. You made your diagnosis relying on
I guess the input from staff but of tests of any kind, but
your opinion based on what information you did have, did
you reach a conclusion as to whether or not at the time of
this offense Mr. Lindsay was in fact suffering from such a
severe mental disease or defect that he could not appreciate
the nature and quality or wrongfulness of his acts?
“[Defense counsel]: Your Honor, I'm going to object.
That's calling for a legal conclusion.
“[Prosecutor]: No.
“The Court: Overrule.
“[Prosecutor]: That's what we asked you to do. Did you
reach an opinion regarding that?

“[Dr. Bare]: Yes.
“[Prosecutor]: What was your opinion about that?
“[Dr. Bare]: My opinion was that if given the circumstances
around the time of the alleged offense, that if he were
experiencing psychotic symptoms as a result of mental
illness, I could not disentangle or pull apart whatever those
psychotic symptoms were from his substance use at the
time of the alleged offense.
“[Prosecutor]: So you're unable as you sit here today to tell
this jury that in your opinion that at the time of this offense
that Mr. Lindsay was legally insane?
“[Defense counsel]: Again, calls for a legal conclusion.
“[Prosecutor]: Was suffering from such a severe mental
disease or defect that he could not appreciate the nature and
quality or wrongfulness of his actions? You can't tell this
jury that in your opinion, can you?
“[Dr. Bare]: That because of that?
“[Prosecutor]: Right.
“[Dr. Bare]: No, I can't.”
(R. 1941-43.)
The State argues that Lindsay initiated the questioning on
direct examination when he asked Dr. Bare if Lindsay's
hallucinations could have been caused by drugs. The State
also argues that pursuant to Rule 11.2(b)(2), Ala. R. Crim. P.,
the results of Lindsay's mental examination were admissible
into evidence at his trial.
Rule 11.2(b)(2), Ala. R. Crim. P., provides:
“The results of mental examinations made pursuant to
subsection (a)(2) of this rule and the results of similar
examinations regarding the defendant's mental condition
at the time of the offense conducted pursuant to Rule
11.4 shall be admissible in evidence on the issue of the
defendant's mental condition at the time of the offense only
if the defendant has not subsequently withdrawn his or her
plea of not guilty by reason of mental disease or defect.
Whether the examination is conducted with or without the
defendant's consent, no statement made by the defendant
during the course of the examination, no testimony by an
examining psychiatrist or psychologist based upon such
a statement, and no other evidence directly derived from

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

Lindsay v. State, --- So.3d ---- (2019)

the defendant's statement shall be admitted against the
defendant in any criminal proceeding, except on an issue
respecting mental condition on which the defendant has
testified.”
*23 Here, Lindsay pleaded not guilty by reason of mental
disease or defect and that plea was not withdrawn at any
time in the proceedings. In fact, Lindsay called Dr. Bare to
testify as to his mental condition. Dr. Bare testified that he had
evaluated Lindsay's competency to stand trial and his mental
state at the time of the murder. He testified that it was his
opinion that Lindsay suffered from paranoid schizophrenia
and a personality disorder. On cross-examination, the State
questioned Dr. Bare about his opinion of Lindsay's mental
state at the time of the murder. As the State correctly argues,
Dr. Bare's opinion was admissible pursuant to Rule 11.2(b)
(2), Ala. R. Crim. P.
Moreover, in Lockhart v. State, 163 So.3d 1088 (Ala. Crim.
App. 2013), this Court addressed this issue and stated:
“Rule 704, Ala. R. Evid., provides: ‘Testimony in the
form of an opinion or inference otherwise admissible is
to be excluded if it embraces an ultimate issue to be
decided by the trier of fact.’ ‘ “An ultimate issue has been
defined as the last question that must be determined by
the jury.” ’ Fitch v. State, 851 So.2d 103, 116 (Ala. Crim.
App. 2001) (quoting Tims v. State, 711 So.2d 1118, 1125
(Ala. Crim. App. 1997) ). In Fitch, this Court recognized
that when the testimony at issue is given by an expert,
Rule 704 must be read in conjunction with Rule 702(a),
Ala. R. Evid., which provides: ‘If scientific, technical,
or other specialized knowledge will assist the trier of
fact to understand the evidence or to determine a fact in
issue, a witness qualified as an expert by knowledge, skill,
experience, training, or education may testify thereto in the
form of an opinion or otherwise.’ See Fitch, 851 So.2d at
117.
“In Fitch, this Court also noted:
“ ‘This Court has said:
“ ‘ “Rule 704, Ala. R. Evid., provides that ‘[t]estimony
in the form of an opinion or inference otherwise
admissible is to be excluded if it embraces an ultimate
issue to be decided by the trier of fact.’ However, in
the case of expert testimony, enforcement of this rule
has been lax. C. Gamble, Gamble's Alabama Rules of
Evidence § 704 (1995).

We have noted previously in Travis v. State, 776 So.2d
819 at 849 (Ala. Cr.App. 1997), that expert testimony
as to the ultimate issue should be allowed when it
would aid or assist the trier of fact, and the fact that
‘ “ ‘a question propounded to an expert witness will
elicit an opinion from him in practical affirmation or
disaffirmation of a material issue in a case will not
suffice to render the question improper’ ” ’ (citations
omitted); see also Rule 702, Ala. R. Evid. (stating that
expert testimony should be allowed when it will aid
or assist the trier of fact).’
“ ‘Henderson v. State, 715 So.2d 863, 864–65 (Ala.
Crim. App. 1997).’
“Fitch, 851 So.2d at 117.
“Furthermore, this Court recently held that ‘an expert may
testify as to mental deficiency or illness in Alabama as
an exception to the ultimate issue rule.’ Smith v. State,
112 So.3d 1108, 1134 (Ala. Crim. App. 2012) (citing §§
127.02(1) and 128.04, C. Gamble, McElroy's Alabama
Evidence (6th ed. 2009) ). Specifically, this Court stated:
“ ‘There is no violation of the prohibition against
testimony concerning the ultimate issue where a
physician testifies concerning his opinion as to a
diagnosis, including a mental diagnosis. “If scientific,
technical, or other specialized knowledge will assist the
trier of fact to understand the evidence or to determine
a fact in issue, a witness qualified as an expert by
knowledge, skill, experience, training, or education may
testify thereto in the form of an opinion or otherwise.”
Rule 702(a), Ala. R. Evid. See J. Colquitt, Alabama Law
of Evidence 1990) (noting that lay and expert opinion
evidence is allowed on certain issues, including mental
condition, regardless of whether such opinion evidence
goes to an ultimate issue in a case).’
*24 “Smith, 112 So.3d at 1134.
“In the present case, the ultimate issue to be decided by
the jury was whether Lockhart intended to cause Burk's
death, as required by the definition of murder found in §
13A–6–2(a)(1), Ala. Code 1975. Dr. King never testified
that Lockhart intended to cause Burk's death. Instead, Dr.
King testified that, in his professional opinion, based on
Lockhart's actions, Lockhart was not suffering from a
mental disease or defect and could understand the nature
and quality and the wrongfulness of his acts on March

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

Lindsay v. State, --- So.3d ---- (2019)

4, 2008. Dr. King explained that, in his expert opinion,
on March 4, 2008, Lockhart was not suffering from a
mental disease or defect because he engaged in a series
of premeditated, organized, and goal-oriented actions.
Certainly, that expert testimony would aid or assist the
jury in determining a fact at issue, i.e., whether Lockhart
was suffering from a mental disease or defect that would
render him unable to appreciate the nature and quality or
the wrongfulness of his acts at the time he caused Burk's
death.”
163 So.3d at 1101-02.
Dr. Bare's testimony concerning his opinion of Lindsay's
mental state at the time of the murder did not violate the
ultimate-issue rule and was admissible for the reasons set out
in Lockhart. Lindsay is due no relief on this claim.

B.
Second, Lindsay argues that it was error for the circuit court
to allow Dr. Bare to testify that it was his opinion that Lindsay
was competent to stand trial. Specifically, Lindsay challenges
the following testimony admitted during Dr. Bare's crossexamination by the prosecutor:
“[Prosecutor]: And after you had evaluated him, you had
talked with family, you had done everything you could do
to make a reasoned opinion as to whether or not he was
competent, you reached a conclusion on that, did you not?
“[Dr. Bare]: Yes, sir.
“[Prosecutor]: And what was it?
“[Dr. Bare]: Well, ultimately that's the decision for the
Court. But I felt like he was able to proceed, ready to go.”
(R. 1899.)
Lindsay did not object to Dr. Bare's testimony concerning his
competency to stand trial; therefore, we review this claim only
for plain error. See Rule 45A, Ala. R. App. P.
As Lindsay argues, and the State concedes, evidence of Dr.
Bare's opinion concerning Lindsay's competency to stand trial
should not have been admitted. Specifically, Rule 11.2(b)(1),
Ala. R. Crim. P., states:
“The results of examinations conducted pursuant to
subsection (a)(1) [competency to stand trial] of this rule ...

shall not be admissible as evidence in a trial for the offense
charged and shall not prejudice the defendant in entering a
plea of not guilty by reason of mental disease or defect.”
(Emphasis added.)
However, the State argues that, pursuant to this Court's
holding in Lockhart v. State, supra, admission of evidence of a
defendant's competency to stand trial may be evaluated under
the harmless-error analysis adopted in Rule 45, Ala. R. App.
P., and Chapman v. California, 386 U.S. 18, 87 S.Ct. 824, 17
L.Ed.2d 705 (1967). The Lockhart Court stated:
*25 “ ‘The apparent purpose behind the prohibition
in Rule 11.2, and the suggested prohibition in the
Committee Comments to that rule, is to prevent a
jury from confusing a defendant's competence to stand
trial with his sanity at the time of the offense and
from using a defendant's competence to negate his
insanity defense. Competency to stand trial deals with
a defendant's “present ability” to assist in his or her
defense, Rule 11.1, Ala. R.Crim. P., while sanity
deals with a defendant's mental state “at the time of
the commission of the acts constituting the offense,”
§ 13A–3–1(a), Ala. Code 1975. Rule 11.2(b)(1), in
expressly prohibiting the admission of the results of
competency examinations during the trial of the offense
charged, specifically provides that those results “shall
not prejudice the defendant in entering a plea of not
guilty by reason of mental disease or defect.” (Emphasis
added.) The Committee Comments, stating that any
finding of competency is inadmissible during the trial of
the offense charged, provide that the purpose of the rule
is to ensure the factual distinction between competency
to stand trial and sanity at the time of the offense so
as “to avoid any prejudice to the defendant.” (Emphasis
added.)’
“[Lewis v. State,] 889 So.2d [623] at 666 [ (Ala. Crim. App.
2003) ].
“In the present case, to the extent that the admission of
Dr. King's testimony concerning Lockhart's competency to
stand trial was error, it was harmless. There is no reason
to believe that the jury was confused as to the distinction
between Lockhart's competence to stand trial and his sanity
at the time of the offense or that the jury used Lockhart's
competence to stand trial to negate his insanity defense.
In the trial court's instructions to the jury, the court was
very clear that the jury needed to determine whether ‘at the
time of the commission of the acts constituting the crime’

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

Lindsay v. State, --- So.3d ---- (2019)

Lockhart was suffering from a mental disease or defect that
rendered him unable to appreciate the nature and quality or
the wrongfulness of his acts. (R. 4354, 4357.)”
Lockhart, 163 So.3d at 1109-10.
Here, there is no reason to believe that the jury could not
distinguish between Lindsay's competency to stand trial and
his mental condition at the time of the murder. The circuit
court instructed the jury that it must determine whether
Lindsay was suffering from a mental disease or defect at
the time of the offense. The jury was not instructed that it
had to determine Lindsay's competency to stand trial. We
are confident that if any error occurred it was harmless. See
Lockhart. Lindsay is due no relief on this claim.

C.
Third, Lindsay argues that the circuit court erred in allowing
Dr. Bare to testify concerning Lindsay's religious beliefs
because, he says, Dr. Bare was not an expert on the Yahweh
religion.
Lindsay did not make this objection at trial; therefore, we
review this claim for plain error. See Rule 45A, Ala. R. App.
P.
The record shows that during cross-examination, the
prosecutor questioned Dr. Bare concerning whether, in order
to properly evaluate Lindsay, Dr. Bare had to learn what
Lindsay thought about his religious beliefs. Dr. Bare testified
that he did limited independent studies into Yahweh, that “the
people who believe in Yahweh believe that there are -– that in
some way Christianity and Judaism sort of diverted from what
the true teachings should have been,” that Lindsay told him
that Yahweh is not the same as the Christian God, that other
people share faith in Yahwehism, and that there are churches
and houses of Yahweh “all around the country.” (R. 1908-09.)
The following then occurred:
“[Prosecutor]: Well, if the evidence has been that he held
his hand over her mouth so she couldn't scream so nobody
could hear it and then chopped away at her neck until he
almost completely severed her head? And then he cleaned
up all the blood so clean you couldn't even get a swab for
DNA analysis, completely cleaned it up, then put her body
in a bag, a plastic bag, another plastic bag, and then a duffel
bag and took her out and threw her in the woods, and then

he took two swords and maybe a hatchet and threw it away
somewhere else, then lied about it for a week -*26 “[Defense counsel]: Is there a question here?
“The Court: Yes.
“[Prosecutor]: Eventually.
“[Defense counsel]: Or is that closing argument?
“[Prosecutor]: And then lied about if for a week? Is that
consistent with this statement that he claimed he did it all
to glorify Yahweh so Yahweh would come?
“[Dr. Bare]: It could be.”
(R. 1919-20.)
Dr. Bare's testimony was properly admitted to explain his
professional opinion concerning Lindsay's defense and was
consistent with Lindsay's defense. If any error occurred, that
error was harmless beyond a reasonable doubt. See Chapman
v. California, supra. Lindsay is due no relief on this claim.

X.
Lindsay next argues that the prosecutor's argument in closing
in the guilt phase that a verdict of not guilty by reason of
mental disease or defect would mean that Lindsay would
be “turned loose” was erroneous and warrants a new trial.
Lindsay cites a number of cases in support of his contention.
See Ex parte Smith, 581 So.2d 531 (Ala. 1991); Berard v.
State, 486 So.2d 476 (Ala. 1985); Allred v. State, 291 Ala.
34, 277 So.2d 339 (Ala. 1973); Dunn v. State, 277 Ala. 39,
166 So.2d 878 (1964); Wise v. State, 251 Ala. 660, 38 So.2d
553 (1948).
Lindsay asserts that the prosecutor commented in both his
initial and his final closing argument that if he were to be
found not guilty by reason of mental disease or defect Lindsay
would be “turned loose.” The prosecutor did not make this
argument in its initial closing argument. However, in its final
closing, the prosecutor argued:
“So they're not asking you to go by the evidence. They're
trying to imply that we're asking you to speculate. They're
asking you to speculate. They're asking you to think just
because this man believed in Yahweh, just because he did
some strange things, wrote a lot of strange things and said
a lot of strange things -– without a doctor to say this is the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21

Lindsay v. State, --- So.3d ---- (2019)

case, they want you to speculate and say, well, he must be
crazy. They're asking you to speculate, not us. We gave you
the evidence. We gave you what you need to find this man
guilty of what he is charged with and what he is guilty of.
Killing that baby.
“But if y'all aren't satisfied, if you think they presented -–
if you somewhere in all this evidence find something clear
and convincing on this part, on this side, to say he's not
guilty? That he is excused? We're going to give him a pass?
Because he had got some mental health issues and because
he believes in Yahweh? If y'all want to do that, y'all have
got the right to do it. You got the power to do it. Turn him
loose. If you find him not guilty by reason of mental disease
or defect. We'll honor your verdict and we'll respect it.
“But if you find as we think you should based on the
evidence, he knew what he was doing, he knew it every
time he did it, what he was doing; he knew he was going to
kill her, and he knew he was going to leave a lot of blood,
and he knew he was going to clean all that blood up, and he
knew he was going to throw her in that bag and wrap her up
real good and take her away, and then lie about it until he
couldn't lie anymore, if you think he didn't know that was
wrong, turn him loose or find him not guilty by reason of
mental disease or defect. Say it's excused; it's okay; we'll
let him go; we'll give him a pass.”
*27 (R. 2081-83 (emphasis added).)
In several of the cases cited by Lindsay, the court found
reversible error because the prosecutor argued in closing that
if the defendant “got loose” after a verdict of not guilty by
reason of mental disease or defect he was going to kill again.
See Ex parte Smith, 581 So.2d at 534 (prosecutor argued
“if this defendant ever gets loose again, he's going to do
it again.”); (State v. Berard, 486 So.2d at 478) (prosecutor
questioned mental-health expert about whether the defendant
would have another psychotic episode and shoot someone
else); (Allred v. State, 291 Ala. at 35, 277 So.2d at 340)
(prosecutor made recurrent arguments in closing: “There's no
way on earth, within good conscience, that you can find that
this woman is not guilty by reason of insanity on that day.
And let her back out to walk the streets of this county and any
other county that she wants to go into and kill whoever else
she wants to.”).
In Dunn v. State, supra, the Supreme Court reversed Dunn's
conviction based on several errors, and stated: “Here, the
solicitor not only expressed his opinion as to what he thought
would happen [if the defendant was found not guilty by reason

of insanity] but also stated that he thought the members of the
jury, “as men of good common sense know” that appellant
would remain in the State mental institution not more than
ten days.” 277 Ala. at 43, 166 So.2d at 882. In Wise v. State,
supra, the prosecutor stated in closing “ ‘If he is insane, don't
convict him, but if they put him in Bryce's [an institution
for the mentally ill], perhaps he may be back here in a few
months.’ ” The defense counsel objected to the argument, and
the court did not give an instruction to the jury.
The cases cited by Lindsay are distinguishable from this case.
First, the prosecutor did not state that Lindsay would kill again
if he were released. Nor did the prosecutor state his personal
opinion. Also, there was no objection to the prosecutor's
argument.
This case is similar to State v. Prevatte, 356 N.C. 178, 570
S.E.2d 440 (2002). In affirming the prosecutor's argument, the
North Carolina Supreme Court stated:
“[D]efendant attributes error to the State's argument to the
jurors that if they found defendant insane, they should ‘let
him go.’ According to defendant, combined with the State's
prior argument concerning mental illness being an excuse,
this argument implied to the jury that defendant would be
able to freely move throughout society if the jury found
him not guilty by reasons of insanity. At the time of this
statement, however, after defendant's objection, the trial
court told the jury, ‘I'll instruct you on the consequences
at a later time.’ Indeed, the trial court did later instruct the
jury that ‘a defendant found not guilty by reason of insanity
shall immediately be committed to a state mental facility.’
The trial court further explained to the jury the hearing
process defendant would go through and the burden he
would have to meet in order to be released. Accordingly,
any alleged error was properly handled via the trial court's
instruction.”
*28 356 N.C. at 240, 570 S.E.2d at 474.
Here, immediately after the circuit court instructed the jury
on mental disease or defect the court gave the following
instruction:
“I also charge you, ladies and gentlemen of the jury, that
at this stage of the trial you're not to concern yourselves
and during your deliberations should not consider the
punishment this defendant is subject to should he be
convicted. At this time your deliberations should concern
only the guilt or innocence of the defendant and nothing
more.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

22

Lindsay v. State, --- So.3d ---- (2019)

(R. 2102 (emphasis added).)
Based on the facts in this case we hold that if any error did
occur in the prosecutor's argument it was rendered harmless
by the circuit court's thorough instructions to not consider any
punishment when determining whether Lindsay was guilty of
the charged offense. See State v. Prevatte. Accordingly, we
find no plain error. Lindsay is due no relief on this claim.

XI.
Lindsay next argues that the circuit court's jury instructions
in the guilt-phase of his capital-murder trial were erroneous.
He makes several different arguments in support of this
contention.
“ ‘A trial court has broad discretion when formulating its
jury instructions....’ Williams v. State, 795 So.2d 753, 780
(Ala. Crim. App. 1999) (citing Williams v. State, 710 So.2d
1276, 1305 (Ala. Crim. App. 1996) ). ‘When reviewing a
trial court's jury instructions, [this Court] must view [the
instructions] as a whole, not in bits and pieces, and as a
reasonable juror would have interpreted them.’ Johnson v.
State, 820 So.2d 842, 874 (Ala. Crim. App. 2000).
“ ‘Although ... [a] defendant is entitled to have the
trial court instruct the jury on his theory of defense, it
is ... well established that [t]he trial judge may refuse
to give a requested jury charge when the charge is
either fairly and substantially covered by the trial judge's
oral charge or is confusing, misleading, ungrammatical,
not predicated on a consideration of the evidence,
argumentative, abstract, or a misstatement of the law.’
“Reeves v. State, 807 So.2d 18, 41 (Ala. Crim. App. 2000)
(citations and quotations omitted). See also Riley v. State,
875 So.2d 352, 358 (Ala. Crim. App. 2003) (holding that
‘the trial judge properly refused the charge because the
charge was substantially covered by the trial judge's oral
charge’).”
Miller v. State, 63 So.3d 676, 701 (Ala. Crim. App. 2010).
“When reviewing a trial court's jury instructions, we must
view them as a whole, not in bits and pieces, and as a
reasonable juror would have interpreted them.” Johnson v.
State, 820 So.2d 842, 874 (Ala. Crim. App. 2000).
There were no objections to the jury instructions now
challenged on appeal. Thus, our review is limited to a plainerror analysis. See Rule 45A, Ala. R. App. P.

“ ‘In setting out the standard for plain error review of jury
instructions, the court in United States v. Chandler, 996
F.2d 1073, 1085, 1097 (11th Cir. 1993), cited Boyde v.
California, 494 U.S. 370, 380, 110 S.Ct. 1190, 108 L.Ed.2d
316 (1990), for the proposition that “an error occurs only
when there is a reasonable likelihood that the jury applied
the instruction in an improper manner.” Williams v. State,
710 So.2d 1276, 1306 (Ala. Cr. App. 1996), aff'd, 710
So.2d 1350 (Ala. 1997), cert. denied, 524 U.S. 929, 118
S.Ct. 2325, 141 L.Ed.2d 699 (1998).’ ”
*29 Broadnax v. State, 825 So.2d 134, 196 (Ala. Crim. App.
2000), quoting Pilley v. State, 789 So.2d 870, 882–83 (Ala.
Crim. App. 1998), reversed on other grounds, 789 So.2d 888
(Ala. 2000).

A.
First, Lindsay argues that the circuit court erred in failing to
instruct the jury on the definition of the terms contained in the
second prong of the not-guilty-by-reason-of-mental-diseaseor-defect defense. Specifically, he argues that the circuit court
should have defined the terms “unable to appreciate the nature
and quality of his/her acts” and “unable to appreciate the
wrongfulness of his/her acts.”
Section 13A-3-1, Ala. Code 1975, states:
“(a) It is an affirmative defense to a prosecution for any
crime that, at the time of the commission of the acts
constituting the offense, the defendant, as a result of severe
mental disease or defect, was unable to appreciate the
nature and quality or wrongfulness of his acts.’
(Emphasis added.)
The State argues that Lindsay did not request that the
court give an addition instruction on these definitions. The
record shows that immediately after voir dire the circuit
court discussed jury instructions with both attorneys. Defense
counsel's requested instructions on mental disease or defect
did not include a definition of the phrase “nature and
quality or wrongfulness of his acts.” (C. 277.) The defendant
requested only that the instructions include the following:
“The Defendant must prove by clear and convincing
evidence that he was affected by disease of the brain when
the offense was committed as to render him so insane that
he did not know right from wrong with respect to the
particular offense charged, or by reason of such mental

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

23

Lindsay v. State, --- So.3d ---- (2019)

disease he could not resist doing the wrong, and the crime
must have been the product solely of such diseased mind.”
(C. 277.) At the charge conference, defense counsel also
stated:
“At the beginning of this trial we presented the Court and
I believe the state with a requested jury charge regarding
what's listed in the commentaries of the mental disease or
defect defense, Your Honor, and also in Dotch v. State, 67
So.3d 936 (Ala. Crim. App. 2010).
“It's changed a little bit. But where you have it where we
could put it in your charges that under a plea of not guilty
by reason of severe mental disease or defect, the burden is
on the defendant to clearly prove by clear and convincing
evidence to the jury that he was so affected by disease of the
brain when the offense was committed as to render him so
insane that he did not know right from wrong with respect
to the particular offense charge or by reason of such severe
mental disease or defect he could not resist doing the wrong
and the crime must have been the product solely of the
diseased mind.”
(R. 1987-88.)
When declining to give Lindsay's requested instructions, the
circuit court stated:
“I also want to state that by refusing the defense's charge,
I feel that it is duplicative in many areas. The Court does
completely cover in more than one occasion the severe
mental disease or defect as required in the pattern jury
instruction in the introduction of the pattern jury charges
and also in section three of the pattern jury charges where
it talks about the affirmative defense with the elements as
well. So I think I have sufficiently covered that. It's not that
I'm denying the charge in its entirety. It does encompass
some of that that I am already giving.”
*30 (R. 2011.)
We agree with the State that Lindsay did not request that the
circuit court instruct the jury on the definitions cited above.
Therefore, our review is limited to determining whether there
was plain error. See Rule 45A, Ala. R. App. P.
Here, the circuit court gave the following jury instructions on
not guilty by reason of mental disease or defect:
“As to the defendant's plea of not guilty by reason of
severe mental disease or defect, it is an affirmative defense
to a prosecution for any crime that at the time of the

commission of the acts constituting the crime, that the
defendant, one, was suffering from a severe mental disease
or defect, and, two, that a result of such severe mental
disease or defect he either, (a), was unable to appreciate
the nature and quality of his acts or, (b), was unable to
appreciate the wrongfulness of his acts.
“However, every person over fourteen years of age is
presumed by law to be responsible for his acts. In other
words, he is presumed to have sufficient mental capacity to
appreciate the fact that certain types of conduct are criminal
or that they are acts which are against the law.
“He is also presumed to possess sufficient mental capacity
to appreciate the nature and quality of his acts.
“The presumption that a person has sufficient mental
capacity to appreciate the criminal nature of certain conduct
and to appreciate the nature and quality of his acts is a fact
in the case which must be considered by the jury along
with all the evidence. This presumption is rebuttable by
evidence to the contrary.
“By entering this plea, the defendant does not waive or give
up his general plea of not guilty. Likewise, he does not give
up the presumption that he is innocent until proven guilty.
The burden is still on the state to prove each and every
essential element of the crime charged beyond a reasonable
doubt.
“By entering his plea of not guilty by reason of severe
mental disease or defect, the defendant does assume the
burden of proving by clear and convincing evidence to the
reasonable satisfaction of the jury, (1) that at the time of
the commission of the alleged acts constituting all or an
essential element of the crime with which he is charged
he was suffering from a severe mental disease or defect.
And (2) was unable to appreciate the wrongfulness of his
acts. Whether or not the defendant was suffering from
such severe mental disease or defect is for you the jury
to determine from all the evidence to your reasonable
satisfaction.
“Now, ladies and gentlemen of the jury, clear and
convincing evidence means evidence that when weighed
against opposing evidence produces in your mind a firm
conviction about every element of the claim and a high
probability that your conclusion is correct.
“Proof by clear and convincing evidence requires a level
of proof greater than proof to your reasonable satisfaction

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

24

Lindsay v. State, --- So.3d ---- (2019)

from the evidence or the substantial weight of the evidence,
but it is less than proof beyond a reasonable doubt.”
(R. 2098-2101.)

“[Lindsay] believed Yahweh told him to do this. That is
what he believed and that he had no choice but to do this
because that is what Yahweh demanded of him. You heard
that in his statement.

The circuit court's instructions were very similar to the
Alabama Pattern Jury Instructions. The Alabama Pattern Jury
Instructions: Criminal also provide that “if appropriate” a
court may give the following instructions:

“Teri Farris sat up here and said that [Lindsay] told her
he did not want to do this, but Yahweh commanded it,
commanded that he do this act.

*31 “Appreciating the nature of his/her acts refers to the
defendant's ability to know what he/she was doing -– the
physical aspects of his/her act.

“....
“[Lindsay] came to Taylor Hardin with the grandiose ideas,
with these hallucinations. You heard Dr. Bare say that
people with command hallucinations like Mr. Lindsay was
having on the day of this crime and grandiose ideology, or
grandiose ideas, that they were more prone to act on those
hallucinations. You heard that from Dr. Bare.

“Appreciating the quality of his/her acts refers to whether
the defendant was aware of the consequences of his/her acts
or understood the significance of his/her actions.
“Being unable to appreciate the wrongfulness of his/her
acts refers to the defendant's ability to understand that his/
her act was morally or legally wrong.”
The pattern instructions note that the above definitions are
not necessary in every case. “The appellate courts of this
state endorse the use of the Alabama Pattern Jury Instructions
in criminal cases.” Ex parte McGriff, 908 So.2d 1024, 1033
(Ala. 2004).
In Ivery v. State, 686 So.2d 495 (Ala. Crim. App. 1996), this
Court considered whether it was plain error for the trial court
to fail to define the term “wrongfulness” as that term is used
in the insanity statute.
“During his closing, ... defense counsel did not distinguish
between moral and legal wrongfulness. Instead, defense
counsel argued that because of an alleged directive from
God, Ivery was unable to appreciate the wrongfulness of
his acts....
“Under these circumstances, it was not plain error for the
trial court not to consider ‘wrongfulness’ as a distinct issue
in Ivery's defense. Under the defense's theory, it was not
even an issue. Thus, we find no plain error in the trial court's
failure to define ‘wrongfulness’ for the jury. We believe that
the meaning of ‘wrongfulness,’ to the extent that word was
used in this case, could be ‘understood by the average juror
in [its] common usage.’ Thornton [v. State], 570 So.2d
[762] at 772 [ (Ala. Crim. App. 1990) ].”
686 So.2d at 502.
In this case, Lindsay's counsel in closing made the following
argument:

“So we would submit to you that there is absolutely no
other reason why this should have happened, none, other
than this man's mental illness affected him so greatly that
he could not help what he was doing.”
(R. 2053-57.)
Here, defense counsel made an argument similar to the
argument made in Ivery and made no distinction between
moral or legal wrong or the other terms in the insanity statute.
Thus, we are confident that the jury properly applied the
“common usage” to the terms in that statute. Accordingly,
there was no plain error in the circuit court's failure to
define the specific terms highlighted above. See Ivery, supra.
Lindsay is due no relief on this claim.

B.
Lindsay next argues that the circuit court erred in failing to
instruct the jury on voluntary intoxication and manslaughter.
*32 Lindsay did not object when the circuit court failed to
instruct the jury on intoxication and manslaughter. Therefore,
we review this claim for plain error.11 See Rule 45A, Ala. R.
App. P.
“Voluntary intoxication and manslaughter as a lesser
included offense of intentional murder are interrelated and
often overlapping subjects. ‘Voluntary drunkenness neither
excuses nor palliates crime.’ Ray v. State, 257 Ala. 418,
421, 59 So.2d 582, 584 (1952). ‘However, drunkenness due

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

25

Lindsay v. State, --- So.3d ---- (2019)

to liquor or drugs may render [a] defendant incapable of
forming or entertaining a specific intent or some particular
mental element that is essential to the crime.’ Commentary
to Ala. Code 1975, § 13A–3–2. Where the defendant is
charged with a crime requiring specific intent and there is
evidence of intoxication, ‘ “drunkenness, as affecting the
mental state and condition of the accused, becomes a proper
subject to be considered by the jury in deciding the question
of intent.” ’ Silvey v. State, 485 So.2d 790, 792 (Ala. Cr.
App. 1986) (quoting Chatham v. State, 92 Ala. 47, 48, 9
So. 607 (1891) ). Consequently, when the crime charged is
intentional murder ‘ “and there is evidence of intoxication,
the trial judge should instruct the jury on the lesser included
offense of manslaughter.” ’ McNeill v. State, 496 So.2d
108, 109 (Ala. Cr. App. 1986) (quoting Gray v. State, 482
So.2d 1318, 1319 (Ala. Cr. App. 1985) ).
“It is clear that ‘[a] defendant is entitled to a charge on
a lesser included offense if there is any reasonable theory
from the evidence that would support the position.’ Ex
parte Oliver, 518 So.2d 705, 706 (Ala. 1987). This is true
regardless of ‘however weak, insufficient, or doubtful in
credibility’ the evidence concerning that offense. Chavers
v. State, 361 So.2d 1106, 1107 (Ala. 1978). When there is
evidence that would support a charge on a lesser included
offense, the defendant is entitled to the charge ‘even where
“the defendant denies the charge,” Ex parte Pruitt, 457
So.2d 456, 457 (Ala. 1984), and [where] “the evidence
supporting the defendant's position is offered by the State.”
Silvey v. State, 485 So.2d 790, 792 (Ala. Cr. App. 1986).
Accord, Ex parte Stork, 475 So.2d 623, 624 (Ala. 1985).’
Starks v. State, 594 So.2d 187, 195 (Ala. Cr. App. 1991).
“A charge on intoxication should be given if ‘ “there is an
evidentiary foundation in the record sufficient for the jury
to entertain a reasonable doubt” ’ on the element of intent.
Coon v. State, 494 So.2d 184, 187 (Ala. Cr. App. 1986)
(quoting Government of the Virgin Islands v. Carmona, 422
F.2d 95, 99 n. 6 (3d Cir. 1970) ). See also People v. Perry,
61 N.Y.2d 849, 473 N.Y.S.2d 966, 966–67, 462 N.E.2d
143, 143–44 (1984) (‘[a] charge on intoxication should be
given if there is sufficient evidence of intoxication in the
record for a reasonable person to entertain a doubt as to the
element of intent on that basis’). An accused is entitled to
have the jury consider the issue of his intoxication where
the evidence of intoxication is conflicting, Owen v. State,
611 So.2d 1126, 1128 (Ala. Cr. App. 1992); Crosslin v.
State, 446 So.2d 675, 682 (Ala. Cr. App. 1983), where the
defendant denies the commission of the crime, Coon v.
State, 494 So.2d at 187; see Moran v. State, 34 Ala. App.

238, 240, 39 So.2d 419, 421, cert. denied, 252 Ala. 60, 39
So.2d 421 (1949), and where the evidence of intoxication is
offered by the State, see Owen v. State, 611 So.2d at 1127–
28.
*33 Fletcher v. State, 621 So.2d 1010, 1019 (Ala. Crim.
App. 1993).
Here, the exact time of death was speculative because
Maliyah had been absent for six days when her body was
discovered. There were only vague assertions that Lindsay
was under the influence of drugs “around” the time that
Maliyah was murdered. In his confession, Lindsay did not
state a specific time that he killed Maliyah. “[E]vidence that
the defendant ingested alcohol or drugs, standing alone, does
not warrant a charge on intoxication.” Pilley v. State, 930
So.2d 550, 562 (Ala. Crim. App. 2005). “ ‘[T]here must
be evidence that the ingestion caused a disturbance of the
person's mental or physical capacities and that that mental
or physical disturbance existed at the time the offense was
committed.’ ” Mashburn v. State, 148 So.3d 1094, 1126 (Ala.
Crim. App. 2013), quoting Lee v. State, 898 So.2d 790,
838 (Ala. Crim. App. 2001) (emphasis added in Mashburn).
There was no plain error in failing to instruct the jury on
intoxication. See Fletcher. Lindsay is due no relief on this
claim.

C.
Lindsay next argues that the circuit court's jury instructions on
not guilty by reason of mental disease or defect as a defense
were confusing and erroneous.
Lindsay did not object to the now challenged instructions.
Therefore, we review these claims for plain error. See Rule
45A, Ala. R. App. P.

1.
Lindsay first argues that the circuit court erroneously defined
the standard of “clear and convincing evidence” when it stated
the following in explaining the verdict forms:
“[I]f after you have considered all the testimony, all the
evidence, all reasonable and proper inferences therefrom,
the law as given to you by the Court, and if from all of that
you are satisfied beyond clear and convincing evidence that
the defendant is not guilty of capital murder, as charged by

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

26

Lindsay v. State, --- So.3d ---- (2019)

way of the indictment by reason of severe mental disease
or defect, then it would be your duty to find the defendant
not guilty by reason of severe mental disease or defect and
the form of your verdict in that case would be as follows:
We, the jury, find defendant, Stephon Lindsay, not guilty
by reason of severe mental disease or defect of the offense
of capital murder as charged in the indictment.”
(R. 2101-12 (emphasis added).) He argues that the
instructions implied a higher standard of proof than provided
by law.
It is clear after reading the instructions as a whole that the
word “beyond” was a slip of the tongue when explaining the
verdict forms. “A cardinal principle of appellate review of
jury instructions is that ‘a single instruction to a jury may not
be judged in artificial isolation, but must be viewed to the
context of the overall charge.’ ” Kennedy v. State, 472 So.2d
1092, 1104 (Ala. Crim. App. 1984). However, the circuit court
correctly instructed the jury as follows:
*34 “If you find that the defendant has met the burden of
proof and from all the evidence you are reasonably satisfied
from clear and convincing evidence that at the time the
acts which constitute all or an essential element of the
offense charged occurred, the defendant was suffering from
a severe disease or defect....
“However, if from your consideration of all the evidence
you find that the state has proved the defendant guilty but
that the defendant has not proved his defense by clear and
convincing evidence to your reasonable satisfaction.
“....
“By entering his plea of not guilty by reason of severe
mental disease or defect, the defendant does assume the
burden of proving by clear and convincing evidence to the
reasonable satisfaction of the jury, one ....
“Proof by clear and convincing evidence requires a level
of proof greater than proof to your reasonable satisfaction
from the evidence or the substantial weight of the evidence,
but it is less than proof beyond a reasonable doubt.”
(R. 2097-2101.)
The circuit court repeatedly stated the correct burden of proof,
and the circuit court's slip of the tongue when explaining the
verdict forms did not constitute reversible error. “The jury
could not have been confused or misled by this slip of the
tongue. ‘[A] mere verbal inaccuracy in a charge, which results
from a palpable slip of the tongue, and clearly could not have

misled or confused the jury is not reversible error.’ ” Graham
v. State, 242 Ga. App. 361, 362, 529 S.E.2d 641, 644 (2000).
See also State v. Mahon, 97 Conn. App. 503, 519, 905 A.2d
678, 688 (2006) (“We have held that an inadvertent slip of the
tongue in summarizing jury instructions does not mean that
a defendant was deprived of his right to a fair trial when the
record reveals that the court properly instructed the jury on the
elements of the crime.”); Morris v. State, 153 Md. App. 480,
521, 837 A.2d 248, 271 (2003) (“[W]e are dealing with an
inadvertent slip of the tongue that nobody at the time noticed.
It may have been a human frailty, but it was by no means
egregious. Nor was it extraordinary. Nor was it flagrant and
outrageous.”). Lindsay is due no relief on this claim.

2.
Lindsay next argues that the circuit court's instructions on the
use of the verdict forms were confusing. Specifically, Lindsay
argues that “the jury's final instructions were that it could stop
at the first verdict form if it found Mr. Lindsay guilty of capital
murder.” (Lindsay's brief at pp. 86-87.)
Lindsay did not object to the instructions on the verdict forms.
Therefore, we review this claim for plain error. See Rule 45A,
Ala. R. App. P.
The circuit court gave the following instructions on the three
verdict forms that it gave to the jury:
“Now as I go through these verdict forms, take no lead
from the way that I have read these verdict forms. I have
just prepared them this way to insure that I have given you
everything you need to do your duty.
“First, after you have considered the charge against the
defendant, all the testimony, all the evidence, all the proper
and reasonable inferences therefrom, if you are satisfied
beyond a reasonable doubt that the defendant is guilty
of capital murder as charged by the -– by way of the
indictment, then your verdict should be as follows: We, the
jury, find defendant, Stephon Lindsay, guilty of the offense
of capital murder as charged in the indictment.
*35 “....
“Next, on the other hand, if after you have considered all
the testimony, all the evidence, all reasonable and proper
inferences therefrom, the law as given to you by the
Court, and if from all that you are not satisfied beyond

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

27

Lindsay v. State, --- So.3d ---- (2019)

a reasonable doubt that the defendant is guilty of capital
murder as charged by way of the indictment, then it would
be your duty to find the defendant not guilty, and the form
of your verdict in that case would be as follows: We, the
jury, find the defendant, Stephon Lindsay, not guilty of
the offense of capital murder as charged in the indictment.
And this is the verdict form, would also have a line for the
foreperson's signature.
“Third form, on the other hand, if after you have considered
all the testimony, all the evidence, all reasonable and proper
inferences therefrom, the law as given to you by the Court,
and if from all of that you are satisfied beyond clear and
convincing evidence that the defendant is not guilty of
capital murder, as charged by way of the indictment by
reason of severe mental disease or defect, then it would
be your duty to find the defendant not guilty by reason
of severe mental disease or defect, and the form of your
verdict in that case would be as follows: We, the jury, find
the defendant, Stephon Lindsay, not guilty by reason of
severe mental disease or defect of the offense of capital
murder as charged in the indictment.”
(R. 2109-12.)
In Dotch v. State, 67 So.3d 936 (Ala. Crim. App. 2010), this
Court addressed a similar issue concerning the verdict forms
in that case. In finding no error, the Dotch Court stated:
“Ditch cites two sentences by the trial court during these
instructions that he claims confused the jury. After the
trial court charged the jury that it should first consider the
charged offenses, it stated, ‘If you find guilt on one or both
of those offenses, that will be your verdict. That will be
it. You stop there.’ (R. 1398; emphasis added.) The court,
however, gave the following charge immediately after, ‘If
you find the State has failed to prove beyond a reasonable
doubt the elements of both of those charges, then you'll
go to the first lesser included of murder, which I've just
charged you.’ (R. 1398.)
“Ditch has pulled the two emphasized sentences out of
context. The trial court sequentially instructed the jury as to
its duty in arriving at its verdict, including its consideration
of Ditch's special plea if the jury were to find him guilty of
a charged or a lesser-included offense.”
Dotch v. State, 67 So.3d 936, 979 (Ala. Crim. App. 2010).
Here, the circuit court did not use the stronger language that
the prosecutor used in Ditch that the jury should “stop” if
it found the defendant guilty. The circuit court merely said

if the jury found Lindsay guilty it should fill out the first
verdict form it cited. The circuit court then proceeded to give
instructions on the remaining two verdict forms. There was
no error, much less plain error, in the court's instructions
concerning the verdict forms. Lindsay is due no relief on this
claim.

Penalty-Phase Issues
XII.
*36 Lindsay argues that his mental condition as a paranoid
schizophrenic renders his death sentence unconstitutional. He
cites Ford v. Wainwright, 477 U.S. 399, 106 S.Ct. 2595, 91
L.Ed.2d 335 (1986), to support his argument.
This issue is raised for the first time on appeal; therefore, we
review this claim for plain error. See Rule 45A, Ala. R. App.
P.
“In Ford v. Wainwright, [477 U.S. 399, 106 S.Ct. 2595,
91 L.Ed.2d 335 (1986),] the United States Supreme Court
drew on long-established principles of the common law to
hold that the Eighth Amendment prohibits execution of the
insane. In Ford, Justice Powell stated in a concurrence to
the four-justice plurality opinion that prisoners are insane
for the purposes of execution if they are ‘unaware of the
punishment they are about to suffer and why they are
to suffer it.’ Justice Powell also opined that a state may,
consistent with due process, presume a prisoner who was
competent to stand trial is sane at the time of execution, and
‘may require a substantial threshold showing of insanity
merely to trigger the hearing process.’ Because there was
no majority opinion, Justice Powell's concurrence became
the controlling opinion in Ford and ‘constitutes “clearly
established” law.’ ”
Green v. State, 374 S.W.3d 434, 442-43 (Tex. Crim. App.
2012).
“[W]e recently held that a diagnosis of paranoid
schizophrenia does not necessarily prohibit the imposition
of the death penalty where the defendant is competent to be
executed.” Berry v. State, 703 So.2d 269, 293 (Miss. 1997).
Death sentences have been upheld after a defendant has been
diagnosed with schizophrenia. See Ferguson v. State, 1112 So.
3d 1154 (Fla. 2012); Corcoran v. State, 774 N.E.2d 495 (Ind.
2002); Commonwealth v. Jermyn, 551 Pa. 96, 709 A.2d 849
(1998).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28

Lindsay v. State, --- So.3d ---- (2019)

Here, Lindsay was deemed competent to stand trial. Lindsay's
sentence of death is not due to be vacated on this basis.

“[Prosecutor]: What have you done?

XIII.

“[Prosecutor]: The Biblical references that he made, are
they correct?

Lindsay next argues that the circuit court erred in the
penalty phase by allowing Det. Thomas Hammonds to testify
concerning Lindsay's religion and his opinion as to whether
the murder was especially heinous, atrocious or cruel when
compared to other capital offenses. Specifically, he argues
that Det. Hammonds's testimony on Yahweh was outside his
area of expertise and his testimony as to whether the murder
was heinous was improper and went to the ultimate matter at
issue.
“The Rules of Evidence do not apply to sentencing hearing.
Rule 1101(b)(3), Ala. R. Evid., provides that the Rules
do not apply to ‘[p]roceedings for extradition or rendition;
preliminary hearing in criminal cases; sentencing, or granting
or revoking probation.’ ” Whatley v. State, 146 So.3d 437,
486 (Ala. Crim. App. 2010).
In regard to sentencing hearings in death-penalty cases, §
13A-5-45(d), Ala. Code 1975, provides:
“Any evidence which has probative value and is relevant
to sentence shall be received at the sentence hearing
regardless of its admissibility under the exclusionary rules
of evidence, provided that the defendant is accorded
a fair opportunity to rebut any hearsay statements.
This subsection shall not be construed to authorize the
introduction of any evidence secured in violation of the
Constitution of the United States or the State of Alabama.”

“[Det. Hammonds]: I attended a couple of semesters at
Briarwood Seminary.

“[Det. Hammonds]: They're correct. There's a twist to it. It's
not something that he is putting -–It's not his interpretation,
but it is an interpretation of -– through the book of in the
teachings of Yahweh ben Yahweh.
“[Prosecutor]: You have done some research on the
teachings of Yahweh ben Yahweh?
“[Det. Hammonds]: Yes.
“[Prosecutor]: Was there -– in those teachings is there a
particular significance to beheading?
“[Defense counsel]: Object, Your Honor. I don't think -–
we are talking about Yahweh and different types of -–
I don't know if there are sects of Yahweh. I don't know
if these seminars were specifically about Yahweh, the
religion of Yahweh, that he had at Briarwood. I don't
think he's been designated as an expert to theology.
“The Court: Overruled.
“[Prosecutor]: Have you read anything about the
significance of beheadings in the Yahweh religion?
“[Det. Hammonds]: I have read and actually just had
watched, two weeks after this investigation. The History
Channel had a documentary on it.
“[Prosecutor]: And was there a significance to beheading?
“[Det. Hammonds]: A very large significance to
beheadings.

A.
*37 Lindsay argues that Det. Hammonds should not have
been allowed to testify, at the penalty phase, concerning
the accuracy of Biblical references Lindsay made in his
confession and the significance of beheadings in the Yahweh
religion. The following occurred in the sentencing hearing:
“[Prosecutor]: Have you had occasion to do any
independent research about any of the stuff that Stephon
Lindsay told you on that interview?
“[Det. Hammonds]: I have.

“[Prosecutor]: Do you know anything else about that?
“[Det. Hammonds]: It was used as a form of punishment.”
(R. 2349-51.) This testimony was elicited on rebuttal after
Lindsay had presented witnesses that testified concerning
Yahweh.
The testimony elicited was helpful to Lindsay and supported
the reasons Lindsay gave for killing Maliyah. This testimony
was also elicited at the sentencing hearing, at which

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

29

Lindsay v. State, --- So.3d ---- (2019)

the Rules of Evidence do not apply. This evidence had
“probative value” and was “relevant” to the sentencing. See
§ 13A-5-45(d), Ala. Code 1975.

(Ala. Crim. App. 1999). In Wilson, officers testified that in
their opinion the murder was especially heinous, atrocious, or
cruel. In finding no error, this Court stated:

Moreover, if any error did occur it was harmless beyond a
reasonable doubt. See Chapman v. California, supra. Lindsay
is due no relief on this claim.

“[W]e do not agree with the appellant's argument that
the testimony of the law enforcement officers constituted
improper testimony about the ultimate issue before the jury.
As we stated in Smith v. State, 756 So.2d 892 (Ala. Cr. App.
1997), aff'd, 756 So.2d 957 (Ala. 1999):

B.
Lindsay next argues that Det. Hammonds should not have
been allowed to testify concerning his opinion whether
the murder was especially heinous, atrocious, or cruel as
compared to other capital murders. Specifically, he argues that
this testimony violated the ultimate-issue rule and requires
a new penalty-phase hearing. The following occurred during
Det. Hammonds's testimony:
“[Prosecutor]: So it is your opinion as compared to other
capital murder cases this case is particularly heinous,
atrocious, and cruel?
“[Det. Hammonds]: It was just knowing that that child lay
there and took that first chop to the neck which obviously
she was still alive, and reaching her hands up to try to
block each one, imagine that child looking at her father,
wondering why was he doing this to her. And each chop
with that child alive, it was very difficult. It was very
difficult for me.
*38 “When we went to the area to locate the body,
knowing what he had done to her, describing how he had
chopped her neck and knowing what was going to be found
in the bag, one of the techs opened it up and asked me did I
want to come and look to observe to be sure the body was
there. I just told them, I said, ‘I can't look at it; you just tell
me there is a body in there because I can't do this.’
“[Prosecutor]: Is this the worst one you have ever had?
“[Det. Hammonds]: This is the worst one I have ever had.”
(R. 2164-65.)
Lindsay did not object to Det. Hammonds's testimony;
therefore, we review this claim for plain error. See Rule 45A,
Ala. R. App. P.
This Court has held that the ultimate-issue rule does not apply
to sentencing hearings. See Wilson v. State, 777 So.2d 856

“ ‘In determining whether a capital offense is especially
heinous, atrocious, or cruel, the factfinder can compare
the murder at issue with other capital crimes. The
testimony of an experienced police officer who had
investigated many capital crimes could be invaluable in
making such a determination.’
“Furthermore,
“ ‘[a]ny evidence which has probative value and
is relevant to sentence shall be received at the
sentence hearing regardless of its admissibility under
the exclusionary rules of evidence, provided that the
defendant is accorded a fair opportunity to rebut any
hearsay statements.’
“§ 13A–5–45(d), Ala. Code 1975. Therefore, the ultimate
issue rule did not apply during the sentencing proceedings,
and the testimony was not improper on that basis. See
Rule 1101(b)(3), Ala. R. Evid. Furthermore, although
the officers incorrectly concluded that the executionstyle nature of the killings established that they were
heinous, atrocious, or cruel, their testimony was still
relevant and probative. During direct examination, the
prosecutor defined the terms ‘heinous,’ ‘atrocious,’ and
‘cruel’ separately. He then asked the officers whether, in
their opinion based on their law enforcement experience
and their observations, these killings were heinous,
atrocious, or cruel. Later, he asked additional questions
about the execution-style nature of the killings. Therefore,
the execution-style nature of the killings, combined with
the testimony of the survivors about the torture the
decedents suffered before their deaths, was relevant in
determining whether the especially heinous, atrocious, or
cruel aggravating circumstance applied. Therefore, the
testimony of the officers was not improper.
“Finally, error, if any, in the admission of the testimony
of the officers was harmless. See Rule 45, Ala. R. App.
P. In its oral charge, the trial court instructed the jury on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

30

Lindsay v. State, --- So.3d ---- (2019)

the correct standard to apply in determining whether the
aggravating circumstance existed, stating as follows:
“ ‘The second aggravating circumstance, as I understand
it, that the State alleges in this case is that this capital
offense was especially heinous, atrocious or cruel. We
can understand that murder is in and of itself sometimes
heinous and sometimes atrocious and sometimes cruel.
It's sometimes all of those things. But in order to be an
aggravating circumstance for the purpose of invoking
the death penalty our law says that it must be especially
so when compared to other capital offenses. The term
“heinous” has been defined to mean extremely wicked or
shockingly evil. The term “atrocious” has been defined
to mean outrageously wicked and violent. The term
“cruel” has been defined to mean designed to inflict a
high degree of pain with utter indifference to or even
enjoyment of the suffering of others. It has at times been
defined as unnecessary torture.’
*39 “(R. 1838–39.) The trial court also instructed the jury
that it would ultimately decide whether the aggravating
circumstance existed. As set forth throughout this opinion,
there was overwhelming evidence from which the jury
could conclude that the offense was especially heinous,
atrocious, or cruel compared to other capital offenses.
Finally, in its sentencing order, the trial court made
the following findings about the applicability of this
aggravating circumstance:
“ ‘The capital offense was especially heinous, atrocious
or cruel compared to other capital offenses. As noted
above, some 19 rounds were fired. Prior to the discharge
of the weapons, the victims were subjected to threats
and intimidation. Some were struck. At least two were
struck with a bottle and one was stomped by the
defendant. The victims were restrained at gunpoint and
required to remove portions of their clothing. They were
taunted and abused for a lengthy period of time. By any
standard acceptable to civilized society, this crime was
extremely wicked and shockingly evil. The defendant
was unnecessarily torturous in his commission of the
crimes. While the Court recognizes that all capital
offenses are heinous, atrocious and cruel to some extent,
the degree of heinousness, atrociousness and cruelty
which characterizes this offense exceeds that which is
common to all capital offenses.’
“(C.R. 263–64.) There is no indication that the jury or
the trial court applied an incorrect standard in finding that

this aggravating circumstance existed. The evidence more
than adequately supports a finding that the offense was
especially heinous, atrocious, or cruel when compared to
other capital offenses. Therefore, viewed in the context
of the entire trial, error, if any, in the admission of the
testimony of the officers was harmless. See Rule 45, Ala.
R. App. P.”
777 So.2d at 881-82.
For the reasons stated in Wilson v. State, any error
in the admission of Det. Hammonds's opinion was
harmless beyond a reasonable doubt. The circuit court gave
thorough instructions on the application of the aggravating
circumstance of especially heinous, atrocious, or cruel. The
jury completed verdict forms indicating that it unanimously
found that the murder was especially heinous, atrocious,
or cruel as compared to other capital murders. Indeed, this
murder meets the definition of especially heinous, atrocious,
or cruel as defined in Ex parte Clark, 728 So.2d 1126 (Ala.
1998), and Ex parte Kyzer, 399 So. 2d 317 (Ala. 1979).
Lindsay is due no relief on this claim.

XIV.
Lindsay next argues that the circuit court erred in allowing
the unredacted videotape of his entire confession to be
admitted into evidence at the penalty phase because, he says,
Lindsay referenced “irrelevant, non-probative, and extremely
prejudicial prior bad acts evidence.” (Lindsay's brief, at pp.
45-46.)12
We have reviewed the unredacted videotape that was admitted
in the penalty phase. (State's exhibit 160.) In the videotape
Lindsay stated that before he found Yahweh he was not a good
person –- that he had molested people, that he had shot at
people, that he had lied, and that he had stolen. Lindsay stated
that he found Yahweh when he was in prison around 1997.13
A good portion of the tape consists of Lindsay discussing his
relationship with Yahweh and his strong faith in that religion.
*40 As previously stated in this opinion, § 13A-5-45(d), Ala.
Code 1975, allows for the broad admission of evidence at the
penalty phase of a capital-murder trial. Indeed, any evidence
that has probative value towards sentencing, regardless of
its admissibility under the Alabama Rules of Evidence, is
admissible. The circuit court correctly allowed Lindsay's
unredacted videotaped confession to be admitted at the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

31

Lindsay v. State, --- So.3d ---- (2019)

penalty phase of Lindsay's capital-murder trial. Lindsay is due
no relief on this claim.

XV.
Lindsay next argues, in three paragraphs in his brief, that he
was denied his right to meaningful expert assistance under
Ake v. Oklahoma, 470 U.S. 68, 105 S.Ct. 1087, 84 L.Ed.2d
53 (1985).
“The United States Supreme Court in Ake v. Oklahoma,
470 U.S. 68, 83, 105 S.Ct. 1087, 84 L.Ed.2d 53 (1985),
held that, when an indigent defendant makes a preliminary
showing that his mental condition at the time of the offense
is likely to be a significant factor at trial, due process
requires that, at a minimum, a state provide access to a
competent psychiatrist who will evaluate the defendant
‘and assist in evaluation, preparation, and presentation of
the defense’ at the guilty phase and at sentencing.”
Morris v. State, 956 So.2d 431, 444 (Ala. Crim. App. 2005).
Lindsay did not request that he be appointed an “independent
expert” to examine him after he had been examined at Taylor
Hardin. In fact, Lindsay's motion requested:
“That an order issue allowing the Defendant to undergo
examination on an inpatient basis by a psychologist
or psychiatrist under contract with or employed by
the Alabama Department of Mental Health and Mental
Retardation to conduct a clinical evaluation as to whether
[Lindsay] has sufficient present ability to assist in his
defense, by consulting with counsel, with a reasonable
degree of rational understanding of the facts and the legal
proceedings against [Lindsay].”
(1 Supp. R. 50.) This motion was granted by the court as was
the motion for a second mental evaluation. Lindsay did not
request an independent expert to assist in his defense.
In McWilliams v. Dunn, 582 U.S. ––––, 137 S.Ct. 1790,
198 L.Ed.2d 341 (2017), the United States Supreme Court
revisited its holding in Ake v. Oklahoma, and noted that
three preliminary conditions were present to trigger Ake. The
Supreme Court stated:
“First, no one denies that the conditions that trigger
application of Ake [v. Oklahoma, 470 U.S. 68, 105 S.Ct.
1087, 84 L.Ed.2d 53 (1985),] are present. McWilliams
is and was an ‘indigent defendant,’ 470 U.S. at 70, 105
S.Ct. 1087. See supra, at 1794. His ‘mental condition’

was ‘relevant to ... the punishment he might suffer,’ 470
U.S. at 80, 105 S.Ct. 1087. See supra, at 1794–1795.
And, that ‘mental condition,’ i.e., his ‘sanity at the time of
the offense,’ was ‘seriously in question,’ 470 U.S. at 70,
105 S.Ct. 1087. See supra, at 1794–1795. Consequently,
the Constitution, as interpreted in Ake, required the State
to provide McWilliams with ‘access to a competent
psychiatrist who will conduct an appropriate examination
and assist in evaluation, preparation, and presentation of
the defense.’ 470 U.S. at 83, 105 S.Ct. 1087.
“Second, we reject Alabama's claim that the State was
exempted from its obligations because McWilliams already
had the assistance of Dr. Rosenszweig, the psychologist
at the University of Alabama who ‘volunteer[ed]’ to help
defense counsel ‘in her spare time’ and suggested the
defense ask for further testing, P.C.T. 251–252. Even if the
episodic assistance of an outside volunteer could relieve
the State of its constitutional duty to ensure an indigent
defendant access to meaningful expert assistance, no lower
court has held or suggested that Dr. Rosenszweig was
available to help, or might have helped, McWilliams at
the judicial sentencing proceeding, the proceeding here at
issue. Alabama does not refer to any specific record facts
that indicate that she was available to the defense at this
time.
*41 “Third, Alabama argues that Ake's requirements
are irrelevant because McWilliams ‘never asked for more
expert assistance’ than he got, ‘even though the trial court
gave him the opportunity to do so.’ Brief for Respondent
50–51. The record does not support this contention. When
defense counsel requested a continuance at the sentencing
hearing, he repeatedly told the court that he needed ‘to
have someone else review’ the Goff report and medical
records. App. 193a. See, e.g., id., at 196a (‘[I]t is just
incumbent upon me to have a second opinion as to the
severity of the organic problems discovered’); id., at 207a
(‘[W]e really need an opportunity to have the right type
of experts in this field, take a look at all of these records
and tell us what is happening with him’); id., at 211a (‘I
told Your Honor that my looking at these records was
not of any value to me; that I needed to have somebody
look at those records who understood them, who could
interpret them for me’). Counsel also explicitly asked
the trial court what else he was supposed to ask for
to obtain an expert: ‘Would Your Honor have wanted
me to file a Motion for Extraordinary Expenses to get
someone?’ Id., at 212a. We have reproduced a lengthier
account of the exchanges, supra, at 1796–1797. They make

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

32

Lindsay v. State, --- So.3d ---- (2019)

clear that counsel wanted additional expert assistance to
review the report and records—that was the point of asking
for a continuance. In response, the court told counsel to
approach the bench and sentenced McWilliams to death.
Thus the record, in our view, indicates that McWilliams did
request additional help from mental health experts.”
582 U.S. at ––––, 137 S.Ct. at 1798-99.
Here, Lindsay used Dr. Bare as his own expert –- he called
Dr. Bare to testify concerning Lindsay's mental health. Also,
unlike the defendant in McWilliams v. Dunn, who repeatedly
asked for an additional expert, Lindsay never requested an
independent expert. Based on the United States Supreme
Court's decision in McWilliams v. Dunn, we cannot say that
Ake was violated in this case. Lindsay is due no relief on this
claim.

XVI.
Lindsay argues that the United States Supreme Court's
decisions in Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428,
153 L.Ed.2d 556 (2002), and Hurst v. Florida, 577 U.S. ––––,
136 S.Ct. 616, 193 L.Ed.2d 504 (2016), mandate that his
death sentence be set aside because, he says, the judge, and
not the jury, must determine the aggravating circumstances
that warrant the imposition of a death sentence and ultimately
sentence him to death.
The Alabama Supreme Court has held that Alabama's capital
sentencing scheme does not violate Ring or Hurst. See
Ex parte Bohannon, 222 So.3d 525 (Ala. 2016); Ex parte
Waldrop, 859 So.2d 1181 (Ala. 2002).
Moreover, in this case, the circuit court gave verdict
forms to the penalty-phase jury concerning the aggravating
circumstances that the State was relying on to warrant a
sentence of death. The jury unanimously found, and indicated
on the verdict forms, that Lindsay had previously been
convicted of another felony involving the use or threat
of violence to the person, an aggravating circumstance
in § 13A-5-49(2), Ala. Code 1975, and that the murder
was especially heinous, atrocious, or cruel as compared to
other capital murders, an aggravating circumstance in §
13A-5-49(8), Ala. Code 1975. The verdict forms also indicate
that the jury voted, 12 to 0, to impose a sentence of death.
There is no Ring or Hurst violation in this case. Lindsay is
due no relief on this claim.

XVII.
Lindsay argues that the circuit court misled the jury as to
its importance in sentencing by referring to its verdict in the
penalty phase as a recommendation.
“ ‘[W]e reaffirm the principle that, in Alabama, the ‘judge,
and not the jury, is the final sentencing authority in criminal
proceedings.” Ex parte Hays, 518 So.2d 768, 774 (Ala.
1986); Beck v. State, 396 So.2d [645] at 659 [ (Ala.
1980) ]; Jacobs v. State, 361 So.2d 640, 644 (Ala. 1978),
cert. denied, 439 U.S. 1122, 99 S.Ct. 1034, 59 L.Ed.2d
83 (1979).’ Ex parte Giles, 632 So.2d 577, 583 (Ala.
1993), cert. denied, [512] U.S. [1213], 114 S.Ct. 2694, 129
L.Ed.2d 825 (1994). ‘The jury's verdict whether to sentence
a defendant to death or to life without parole is advisory
only.’ Bush v. State, 431 So.2d 555, 559 (Ala. Crim. App.
1982), aff'd, 431 So.2d 563 (Ala. 1983), cert. denied, 464
U.S. 865, 104 S.Ct. 200, 78 L.Ed.2d 175 (1983). See also
Sockwell v. State, [675] So.2d [4] (Ala. Cr. App. 1993).
‘We have previously held that the trial court does not
diminish the jury's role or commit error when it states
during the jury charge in the penalty phase of a death case
that the jury's verdict is a recommendation or an “advisory
verdict.” White v. State, 587 So.2d 1218 (Ala. Cr. App.
1990), aff'd, 587 So.2d 1236 (Ala. 1991), cert. denied, 502
U.S. 1076, 112 S.Ct. 979, 117 L.Ed.2d 142 (1992).’ Burton
v. State, 651 So.2d 641 (Ala. Cr. App. 1993).”
*42 Taylor v. State, 666 So.2d 36, 50–51 (Ala. Crim. App.
1994). Lindsay is due no relief on this claim.

Sentencing-Order Issues
XVIII.
Lindsay next argues that the circuit court's order sentencing
him to death was erroneous for several reasons. First, he
argues that the court failed to find any statutory mitigating
circumstances. Second, he argues that the court used the
wrong standard when weighing the aggravating and the
mitigating circumstances and fixing his sentence at death.
A review of the circuit court's sentencing order reflects that
the order fails to comply with the provisions of § 13A-5-47(d),
Ala. Code 1975.14

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

33

Lindsay v. State, --- So.3d ---- (2019)

“At the time that Collins was sentenced § 13A–5–47(d),
Ala. Code 1975, provided:
“ ‘Based upon the evidence presented at trial, the
evidence presented during the sentence hearing, and
the pre-sentence investigation report and any evidence
submitted in connection with it, the trial court shall
enter specific written findings concerning the existence
or nonexistence of each aggravating circumstance
enumerated in Section 13A–5–49, each mitigating
circumstance enumerated in Section 13A–5–51, and any
additional mitigating circumstances offered pursuant
to Section 13A–5–52. The trial court shall also enter
written findings of facts summarizing the crime and the
defendant's participation in it.’
“This statute contains the word shall and is mandatory.
‘[W]ritten findings of fact are a component necessary
to channel the trial court's discretion in determining a
sentence, and they are critical to the mandatory appellate
review of the death sentence.’ Largin v. State, 233 So.3d
374, 425 (Ala. Crim. App. 2015).
In this case, the circuit court not only did not make
specific findings of facts concerning the application of the
aggravating and the mitigating circumstances, but it also
failed to enter written findings of fact summarizing the
offense and Collins's involvement in the murder.
Collins v. State, [Ms. CR-14-0753, October 13, 2017] ––– So.
3d ––––, –––– (Ala. Crim. App. 2017).
Here, the circuit court failed to make written findings
of fact concerning each of the aggravating circumstances
contained in § 13A-5-49, Ala. Code 1975, and each of the
mitigating circumstances found in § 13A-5-51, Ala. Code

1975. The court is required to make specific findings of
fact concerning each of the circumstances contained in both
statutes, whether any of those circumstances are applicable.
Also, the circuit court found the existence of two aggravating
circumstances but failed to make specific findings of fact
concerning those circumstances.15 Last, the order does
contain the following misstatement: “The Court further finds
that the evidence presented in support of the statutory
mitigating circumstances was not persuasive in this case, and
that the non-statutory mitigating circumstances heretofore
enumerated are insufficient to outweigh the aggravating
circumstances.” (C. 119) (emphasis added).16 The correct
standard is contained in § 13A-5-46, Ala. Code 1975, and
provides that the aggravating circumstances must outweigh
the mitigating circumstances.
*43 Accordingly, for the reasons stated above, we affirm
Lindsay's capital-murder conviction and remand this case
to the Etowah Circuit Court for that court to fully comply
with the provisions of § 13A-5-47(d), Ala. Code 1975 (now
codified at § 13A-5-47(b), Ala. Code 1975). Due return
should be filed in this Court within 60 days from the date of
this opinion.
AFFIRMED AS TO CONVICTION; REMANDED FOR
CORRECTION OF SENTENCING ORDER.

Windom, P.J., and McCool and Minor, JJ., concur. Cole, J.,
recuses himself.
All Citations
--- So.3d ----, 2019 WL 1105024

Footnotes

1

2
3
4
5

The jury's sentencing verdict is no longer a recommendation. Sections 13A-5-45, 13A-5-46, and 13A-5-47, Ala. Code
1975, were amended, effective April 11, 2017, by Act No. 2017-131, Ala. Acts 2017, to place the final sentencing decision
in the hands of the jury. Act No. 2017-131, however, does not apply retroactively. See § 2, Act No. 2017-131, Ala. Acts
2017, § 13A-5-47.1, Ala. Code 1975.
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
The circuit court used verdict forms, similar to those approved by the Alabama Supreme Court for use in the penalty
phase of a capital-murder trial, so that the jury could memorialize what aggravating circumstances it found to exist beyond
a reasonable doubt. See Ex parte McGriff, 908 So.2d 1024, 1033 (Ala. 2004).
Lindsay states in brief that there is nothing in the record that shows that Lindsay was competent to stand trial.
Lindsay's motion stated, in part: “[T]he defendant's constitutional rights to due process and a fair and impartial trial
were violated as follows: Before Defendant's trial began, the Court ordered that the defendant be mentally evaluated by
doctors at Taylor Hardin Mental Health Center. Defendant was then sent to Taylor Hardin and evaluated, and after being
evaluated the defendant was sent back to the Etowah County jail. Then a senior doctor from Taylor Hardin (Doctor Bare)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

34

Lindsay v. State, --- So.3d ---- (2019)

6
7

8
9
10
11
12
13
14
15

16

turned in his report to the Circuit Court of Etowah County concerning his mental evaluation of the defendant, Stephon
Lindsay.” (C. 138.)
To protect the anonymity of the jurors we are using their initials.
In Ex parte Phillips, [Ms. 1160403, October 19, 2018] ––– So. 3d –––– (Ala. 2018), Chief Justice Stuart, writing, in a
special concurrence joined by two members of the Alabama Supreme Court, stated: “For the reasons set forth above, I
would overrule Ex parte Bankhead[, 585 So.2d 112 (Ala. 1991),] and its progeny in this regard and now hold that failure
to make a timely objection forfeits consideration under a plain-error standard of a Batson objection raised for the first
time on appeal.” ––– So. 3d at ––––.
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
Lindsay admitted that the swords belonged to him.
The State withdrew State's exhibit nos. 137 and 145.
The circuit court first indicated that it was inclined to give an intoxication instruction. However, no instruction was given,
and Lindsay did not object on that basis at the conclusion of the instructions.
The record shows that Lindsay's confession was redacted before it was admitted into evidence in the guilt phase.
References to Lindsay's prior convictions, his prison time, and the Yahweh religion were redacted.
At the sentencing hearing the State presented evidence that Lindsay had been convicted of six counts of robbery in the
first degree.
Effective April 11, 2017, § 13A–5–47, Ala. Code 1975, was amended. The language in subsection (d) is now contained
in subsection (b) of § 13A-5-47.
The order does not state what felony conviction triggered application of the aggravating circumstance contained in §
13A-5-49(2), Ala. Code 1975, although Lindsay's prior convictions are contained in the record. Nor does the order state
the facts surrounding the murder that warrant application of the aggravating circumstance that the murder was especially
heinous, atrocious, or cruel. Section 13-5-49(8), Ala. Code 1975.
We are confident that this was a misstatement and that the circuit court was well aware of the law. The circuit court gave
a thorough and correct instruction on the weighing process in the penalty phase.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

35

Appendix B

Lindsay v. State, --- So.3d ---- (2020)

2020 WL 597353
Only the Westlaw citation is currently available.
NOT YET RELEASED FOR PUBLICATION.
Court of Criminal Appeals of Alabama.

Stephon LINDSAY
v.
STATE of Alabama
CR-15-1061
|
February 7, 2020
Synopsis
Background: Defendant was convicted in the Circuit Court,
Etowah County, No. CC-13-652, of capital murder and
was sentenced to death. Defendant appealed. The Court
of Criminal Appeals, 2019 WL 1105024, affirmed the
conviction but remanded for correction of the sentencing
order. After a second remand, the Circuit Court, Etowah
County, No. CC-13-652, issued an amended sentencing order.

Holdings: On return to second remand, the Court of Criminal
Appeals, Kellum, J., held that:
sufficient evidence supported finding that defendant was
not under the influence of extreme mental or emotional
disturbance when he committed the offense;
sufficient evidence supported finding that defendant did not
lack the capacity to appreciate the criminality of his conduct
or to conform his conduct to the requirements of the law;
sufficient evidence supported finding that the murder was
especially heinous, atrocious, or cruel compared to other
capital offenses; and

Appeal from Etowah Circuit Court (CC-13-652); William
B. Ogletree, Judge
Attorneys and Law Firms
Angela L. Setzer and Alison N. Mollman of Equal Justice
Initiative, Montgomery; Paul R. Roberts II, Gadsden; and
Scott F. Stewart, Gadsden, for appellant.
Steve Marshall, atty. gen., and Stephen M. Frisby (withdrew
01/11/2019) and Christopher R. Reader (on remand), asst.
attys. gen., for appellee.

On Return to Second Remand
KELLUM, Judge.
*1 Stephon Lindsay appealed his conviction for the murder
of his daughter, 21-month-old Maliyah Lindsay, an offense
defined as a capital offense by § 13A-5-40(a)(15), Ala. Code
1975, because Maliyah was less than 14 years of age at the
time of her death. This Court affirmed Lindsay's capitalmurder conviction but remanded the case for the Etowah
Circuit Court to amend its sentencing order to comply with
the provisions of former § 13A-5-47(d), Ala. Code 1975,
(now codified at § 13A-5-47(b), Ala. Code 1975), by making
specific written findings of fact concerning each statutory
mitigating circumstance contained in § 13A-5-51, Ala. Code
1975, and each aggravating circumstance contained in §
13A-5-49, Ala. Code 1975. See Lindsay v. State, [Ms.
CR-15-1061, March 8, 2019] ––– So. 3d –––– (Ala. Crim.
App. 2019). On return to remand, both Lindsay and the
State requested that this case be remanded a second time
because the circuit court had failed to fully comply with our
instructions by making specific findings of fact concerning
each statutory mitigating circumstance and each aggravating
circumstance. By order dated September 12, 2019, this Court
again remanded the case to the circuit court. Lindsay v. State,
(CR-15-1061, September 12, 2019). This case is now before
this Court on return to second remand.

the death penalty was warranted.
I.
Death sentence affirmed.
Cole, J., recused himself.

In this Court's opinion on original submission, we addressed
the majority of the issues raised by Lindsay in his brief to
this Court. The only issue that we did not address was Issue
XVII -- Lindsay's claim that the circuit court's order contained

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Lindsay v. State, --- So.3d ---- (2020)

several errors.1 Specifically, Lindsay now argues that the
circuit court erred in failing to find two statutory mitigating
circumstances: (1) that Lindsay committed the offense while
he was under the influence of extreme mental or emotional
disturbance, § 13A-5-51(2), Ala. Code 1975; and (2) that
Lindsay lacked the capacity to appreciate the criminality of
his conduct or to conform his conduct to the requirements of
the law, § 13A-5-51(6), Ala. Code 1975.
In an one-paragraph argument in his brief, Lindsay argues
that the record is replete with evidence indicating that
those two statutory mitigating circumstances were present
and should have been applied. He asserts that Dr. Robert
Bare, a psychologist, testified that Lindsay suffered from
paranoid schizophrenia and that he had exhibited “delusions
of grandeur and hallucinations.” Lindsay asserts that, based
on this Court's holding in Haney v. State, 603 So. 2d 368 (Ala.
Crim. App. 1991), and the holding of the United States Court
of Appeals for the Eleventh Circuit in Magwood v. Smith, 791
F.2d 1438 (11th Cir. 1986), the circuit court was required to
find that Lindsay's mental health was a statutory mitigating
circumstance.
*2 In Haney, this Court considered whether a circuit
court had erred in declining to find as a nonstatutory
mitigating circumstance that Haney suffered from “spouse
abuse syndrome” at the time that she hired someone to murder
her husband. We stated:
“[Haney] particularly takes issue with the trial court's
failure to find that her alleged suffering from ‘spouse abuse
syndrome’ constituted a mitigating circumstance, which
she argues the court should have weighed in sentencing.
The fact that the court did not make such a finding does
not mean that it did not consider the evidence offered. On
the contrary, it indicates that the trial court did not find that
the evidence was mitigating. We find no abuse of the trial
court's discretion in this regard.”
Haney, 603 So. 2d at 389. Haney does not support Lindsay's
argument.
However, in Magwood v. Smith, the Eleventh Circuit Court
of Appeals considered whether the sentencing court had erred
in failing to find as statutory mitigating circumstances that
at the time of the murder Magwood was under the influence
of extreme mental or emotional disturbance and lacked the
capacity to appreciate the criminality of his conduct. The
Magwood court stated:

“After reviewing the psychiatric evidence that was before
the state court, we must conclude that the state court's
rejection of the two mental condition mitigating factors
is not fairly supported by the record and that, as
such, Magwood was sentenced to death without proper
attention to the capital sentencing standards required by
the Constitution. The three members of the court-appointed
lunacy commission reported on August 16, 1979, that
Magwood was presently insane and probably was insane
on the date of Sheriff [Neil] Grantham's murder. As a result
of this report, Magwood was committed to Searcy Hospital
for an eight-month course of treatment that required the
use of powerful antipsychotic drugs. Dr. [William] Rudder
expanded upon the commission's findings in his deposition
and repeated his conclusion that Magwood was insane on
March 1, 1979. Dr. [Douglas] McKeown, a court-appointed
psychologist, concluded that Magwood was not insane on
March 1, but that he suffered from paranoid schizophrenia
on that date. Dr. [Bancroft] Cooper and Dr. [Donald] Crook
both believed that Magwood was not insane at the time
of their June 6, 1979, examination, but neither physician
expressed an opinion about Magwood's state of mind on
the day of the crime. Thus, four experts ascertained that
Magwood suffered from some form of serious mental
disorder on the date of Sheriff Grantham's murder and none
testified that Magwood was free from mental illness on that
date.”
791 F.2d at 1449-50.2
Alabama appellate courts have long held that it is within the
sentencing court's discretion whether it finds evidence to be
mitigating. We have stated:
*3 “ ‘The United States Supreme Court's decision in
Lockett v. Ohio, 438 U.S. 586, 98 S.Ct. 2954, 57 L.Ed.2d
973 (1978), requires that a circuit court consider all
evidence offered in mitigation when determining a capital
defendant's sentence. However,
“ ' “ '[M]erely because an accused proffers evidence of
a mitigating circumstance does not require the judge
or the jury to find the existence of that fact. Mikenas
[v. State, 407 So. 2d 892, 893 (Fla. 1981)]; Smith [v.
State, 407 So. 2d 894 (Fla. 1981)].’ Harrell v. State,
470 So. 2d 1303, 1308 (Ala. Cr. App. 1984), aff'd, 470
So. 2d 1309 (Ala.), cert. denied, 474 U.S. 935, 106
S.Ct. 269, 88 L.Ed.2d 276 (1985).”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Lindsay v. State, --- So.3d ---- (2020)

“ ‘Perkins v. State, 808 So. 2d 1041[ , 1137] (Ala. Crim.
App. 1999).
“ ‘Although the trial court must consider all mitigating
circumstances, it has discretion in determining whether
a particular mitigating circumstance is proven and the
weight it will give that circumstance.’ ” Simmons v.
State, 797 So. 2d 1134, 1182 (Ala. Crim. App. 1999),
quoting Wilson v. State, 777 So. 2d 856, 893 (Ala.
Crim. App. 1999). “ ‘While Lockett [v. Ohio, 438 U.S.
586, 98 S.Ct. 2954, 57 L.Ed.2d 973 (1978),] and its
progeny require consideration of all evidence submitted
as mitigation, whether the evidence is actually found
to be mitigating is in the discretion of the sentencing
authority.’ ” Ex parte Slaton, 680 So. 2d 909, 924 (Ala.
1996), quoting Bankhead v. State, 585 So. 2d 97, 108
(Ala. Crim. App. 1989).’ ”
White v. State, 179 So. 3d 170, 236 (Ala. Crim. App. 2013),
quoting Albarran v. State, 96 So. 3d 131, 212-13 (Ala. Crim.
App. 2011).
This same analysis has been applied to evidence of a
defendant's mental health that is presented in mitigation. The
Alabama Supreme Court has stated:
“The Court of Criminal Appeals affirmed the trial
court's findings concerning Ferguson's mental health as a
nonstatutory mitigating circumstance on the basis that the
trial court had properly considered the mitigating evidence,
but placed little weight upon it in light of the other
testimony and evidence produced at trial. We conclude that
the Court of Criminal Appeals correctly applied the settled
law on this issue in finding that the trial court had in fact
taken into account Ferguson's mental health as a possible
nonstatutory mitigating circumstance. See Lockett v. Ohio,
438 U.S. 586, 98 S.Ct. 2954, 57 L.Ed.2d 973 (1978); Ex
parte Hart, 612 So. 2d 536, 542 (Ala. 1992)(‘Lockett does
not require that all evidence offered as mitigating evidence
be found to be mitigating.’), cert. denied, 508 U.S. 953, 113
S.Ct. 2450, 124 L.Ed.2d 666 (1993); and Ex parte Slaton,
680 So. 2d 909, 924 (Ala. 1996) (‘ “While Lockett and
its progeny require consideration of all evidence submitted
as mitigation, whether the evidence is actually found to be
mitigating is in the discretion of the sentencing authority.”
’)(quoting Bankhead v. State, 585 So. 2d 97, 108 (Ala.
Crim. App. 1989), cert. denied, 519 U.S. 1079, 117 S.Ct.
742, 136 L.Ed.2d 680 (1997)).”
Ex parte Ferguson, 814 So. 2d 970, 976 (Ala. 2001).

Here, in the circuit court's amended sentencing order, the
court stated the following concerning the statutory mitigating
circumstances:
“The Court, in determining and weighing circumstances in
this case, reviewed all statutory mitigating circumstances,
including the testimony from Dr. Robert Bare presented by
[Lindsay] in support of their contention that the offense was
committed while Lindsay was acting under the influence
of extreme mental or emotional disturbance, pursuant to
§ 13A-5-51(2), Ala. Code 1975, and/or that he lacked
the capacity to appreciate the criminality of his conduct
or to conform his conduct to the requirements of the
law, pursuant to § 13A-5-51(6), Ala. Code 1975. Dr.
Bare testified that he was unable to give an opinion
as to whether [Lindsay's] symptoms at the time of the
offense were caused by actual mental illness or extensive
polysubstance abuse. The Court finds, therefore, that the
evidence presented was insufficient to support a finding
that the offense was committed while [Lindsay] was under
the influence of extreme mental or emotional disturbance,
§ 13A-5-51(6). However, the Court does find that Dr.
Bare's testimony was relevant and significant as to the
mental condition of [Lindsay] at the time of the offense.
Accordingly, this Court considered and weighed that
testimony, as a nonstatutory mitigating factor in this case.
*4 “The Court considered each of the remaining
statutory mitigating circumstances, to determine if any
were applicable in this case. The Court finds specifically
that § 13A-5-51(1) is not applicable, in that [Lindsay] did
in fact have a significant prior criminal history, including
six counts of robbery in the first degree, as noted in the
section of this order related to aggravating circumstances.
Further, there was no evidence to support a finding that
the victim participated in [Lindsay's] conduct or consented
to it, § 13A-5-51(3), that [Lindsay] was an accomplice
in the capital offense committed by another person and
his participation was relatively minor, § 13A-5-51(4), or
that [Lindsay] acted under extreme duress or under the
substantial domination of another person, § 13A-5-51(5).
Finally, the Court finds that [Lindsay's] age of 35 years
at the time of the crime is not a statutory mitigating
circumstance in this cause pursuant to § 13A-5-51(7), Ala.
Code 1975.”
(C. 27, on return to second remand.)
Clearly, the circuit court found that Lindsay's mental health
was a nonstatutory mitigating circumstance. The court
complied with the United States Supreme Court's holding in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Lindsay v. State, --- So.3d ---- (2020)

Lockett v. Ohio, 438 U.S. 586, 98 S.Ct. 2954, 57 L.Ed.2d 973
(1978), and the Alabama Supreme Court's decision in Ex parte
Ferguson, supra.
Moreover, even if we applied the Magwood v. Smith
holding, the evidence in this case concerning Lindsay's mental
condition was far less compelling than the evidence presented
to the federal court in Magwood. Dr. Bare testified that,
based on his conversations with Lindsay and Lindsay's family
members, he could not determine that Lindsay had exhibited
any “bizarre or overtly psychotic behavior” before he killed
his daughter. (R. 1901.) Dr. Bare also testified that he could
not say that Lindsay's hallucinations were caused by his
mental problems or his substance abuse. Unlike in Magwood,
four doctors did not testify that Lindsay was mentally ill or
insane at the time that he murdered his daughter. The circuit
court's findings are supported by the record; thus, we cannot
say that the circuit court abused its discretion. Lindsay is due
no relief on this claim.

II.
Last, as required by § 13A-5-53, Ala. Code 1975, this
Court must review the propriety of Lindsay's capital-murder
conviction and his sentence of death. Lindsay was indicted
and convicted of murdering his 21-month-old daughter,
an offense defined as capital by § 13A-5-40(a)(15), Ala.
Code 1975, and punishable by death. The jury unanimously
recommended that Lindsay be sentenced to death. Our review
of the record shows that Lindsay's sentence of death was not
imposed under the influence of passion, prejudice, or any
other arbitrary factor. See § 13A-5-53(b)(1), Ala. Code 1975.
The circuit court found as aggravating circumstances that
Lindsay had previously been convicted of a felony involving
the use or threat or violence to another person, see §
13A-5-49(6), Ala. Code 1975, and that the murder was
especially heinous, atrocious, or cruel as compared to other
capital murders, see § 13A-5-49(8), Ala. Code 1975. In regard
to the aggravating circumstance set out in § 13A-5-49(6), the
circuit court stated:
“Circuit Clerk Cassandra ‘Sam’ Johnson testified
concerning Lindsay's prior felony convictions involving
violent crimes. Certified copies of the judgment orders
were admitted into evidence from CC-1999-296.01
through .06 showing that [Lindsay] was convicted of six

(6) counts of robbery in the first degree, which is a crime
of violence under Alabama law.”
(C. 25, on return to second remand.) In regard to the
aggravating circumstance set out in § 13A-5-49(8), the circuit
court stated:
“There was specific testimony from ... Dr. Valerie Green
during the guilt phase of the trial, about the bruising to the
child's face, where [Lindsay] put his hand over her mouth to
prevent her from crying out while he repeatedly attempted
to cut her head from her body. Green also testified about
defensive wounds to the child's hands, where she tried
to shield herself from the blows. The evidence indicated
that when at least some of the wounds ... were inflicted,
Maliyah was still alive, being held down by her father,
with his hand over her mouth, as he continued to strike her
with the knife or hatchet. Testimony at trial indicated that
the victim's head was very nearly severed, due to multiple
horrendous and gruesome injuries inflicted by [Lindsay].
After her death, [Lindsay] wrapped his daughter's body
in a trash bag, placed it inside a duffel bag, and dumped
her on the side of the road, in an area where garbage was
commonly known to be discarded. The Court findings that
this evidence supported the jury's verdict and this Court's
conclusion that the capital offense was especially heinous,
atrocious, or cruel, as compared to other capital offenses.”
*5 (C. 25-26, on return to second remand.)
When considering the application of this aggravating
circumstance, this Court has stated:
“The aggravating circumstance that the murder was
especially heinous, atrocious, or cruel ‘appl[ies] to only
those conscienceless or pitiless homicides which are
unnecessarily torturous to the victim.’ Ex parte Kyzer,
399 So. 2d 330, 334 (Ala. 1981), abrogated on other
grounds by Ex parte Stephens, 982 So. 2d 1148 (Ala.
2006). In Norris v. State, 793 So. 2d 847, 854–62 (Ala.
Crim. App. 1999), this Court recognized three factors
that are particularly indicative that a capital offense was
especially heinous, atrocious, or cruel: (1) the infliction on
the victim of physical violence beyond that necessary or
sufficient to cause death; (2) appreciable suffering by the
victim after the assault that ultimately resulted in death;
and (3) the infliction of psychological torture on the victim.
This Court noted that under all three factors, ‘the critical
inquiry’ is whether the victim was ‘conscious or aware’ for
‘an appreciable lapse of time, sufficient enough to cause
prolonged suffering.’ Norris, 793 So. 2d at 854–61.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Lindsay v. State, --- So.3d ---- (2020)

Floyd v. State, 284 So. 3d 250, 350 (Ala. Crim. App. 2017).
Certainly, the murder in this case met the definition of
especially heinous, atrocious, or cruel as discussed in Floyd.
Indeed, by any definition the murder in this case was heinous.
The circuit court found no statutory mitigating circumstances
and made the following findings concerning the nonstatutory
mitigating circumstances:
“The Court has also considered all of the evidence
presented by [Lindsay] during the penalty/sentencing
phase of the trial regarding nonstatutory mitigators.
Testimony from Jeffrey Miller, who was married to
Lindsay's mother from 1986-1991 indicated that Lindsay
had issues when he first married into the family due to
an accident wherein he was playing with a lighter, and
caught his aunt's bed on fire; the aunt died in the fire.
Miller stated that he tried to help [Lindsay] while he
was married to his mother, and that he re-established a
relationship with [Lindsay] after he was released from
prison. [Lindsay's] sister, Tippany Tolbert, testified about
their mother's history of severe alcohol abuse, multiple
stepfathers, abusive and unstable situations during their
childhoods.
“The Court also considered the testimony of the mitigation
specialist Taitha Powers Bailey, who stated that she was
unable to review many of the school and medical records
of [Lindsay] because they had been lost or destroyed. She
testified that Lindsay spent most of his life believing that
Leroy Lindsay was his father, only to later learn that he
was not his biological father, and that the father's true name
was unknown. There were multiple investigations of the
household while [Lindsay] was a child due to allegations
of abuse and neglect, and clearly [Lindsay] faced many
obstacles growing up in his mother's household. During
this time, Lindsay began having problems with behavior
at school, and began counseling. On separate occasions,
he was treated for injuries due to his mother's abusive
boyfriend, and locked out of the family home. Bailey also
testified that she contacted as many of Lindsay's relatives
and friends as she could reach, to get more information.
*6 “The Court finds that Lindsay's stepfather and sister
expressed deep love and concern for him. The Court
considered and carefully weighed that testimony as well
as the testimony of [Lindsay's] mitigation specialist. The
Court finds that there was evidence of serious abuse and
neglect of [Lindsay] as a child, a significant absence of
parental stability and nurturance (an alcoholic mother,

and multiple stepfathers, some of whom were physically
abusive to [Lindsay] ), and the absence of a stable home
environment until he was placed in the custody of his
maternal grandmother at around 13 years of age. The
Court notes that [Lindsay's] sister and his former stepfather
appear to have loved and cared for him, both as a child and
as an adult. The Court finds and considers as a nonstatutory
mitigating factor that [Lindsay's] family loved [Lindsay],
that they felt the love that [Lindsay] had for them, that
they believe he has good and admirable qualities, and that
they urged this Court to spare [Lindsay's] life so that he
could have an opportunity to continue to be a loved and
valued member of their friendship or family circles. The
Court further finds and considers as mitigating evidence on
[Lindsay's] behalf all relevant evidence of [Lindsay's] life,
background, family and education history, and accords it
the weight to which it is due.”
(C. 27-28, on return to second remand.)
According to § 13A-5-53(b)(2), Ala. Code 1975, this Court
must independently weigh the aggravating circumstances and
the mitigating circumstances to determine the propriety of
Lindsay's sentence of death. After independently weighing
the circumstances presented in this case, this Court is
convinced, as was the circuit court, that death is the
appropriate sentence for Lindsay's brutal murder of his 21month-old daughter.
As further required by § 13A-5-53(b)(3), Ala. Code 1975,
this Court must determine whether Lindsay's death sentence
was disproportionate or excessive to the sentences imposed in
similar cases. Lindsay's sentence was neither. See Blackmon
v. State, 7 So. 3d 397 (Ala. Crim. App. 2005); Minor v. State,
914 So. 2d 372 (Ala. Crim. App. 2004); Broadnax v. State,
825 So. 2d 134 (Ala. Crim. App. 2000); Ward v. State, 814
So. 2d 899 (Ala. Crim. App. 2000).
This Court has also searched the record for any error that may
have adversely affected Lindsay's substantial rights and has
found none. See Rule 45A, Ala. R. App. P.
For the foregoing reasons, we affirm Lindsay's sentence of
death.
AFFIRMED.

Windom, P.J., and McCool and Minor, JJ., concur. Cole, J.,
recuses himself.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Lindsay v. State, --- So.3d ---- (2020)

All Citations
--- So.3d ----, 2020 WL 597353

Footnotes

1
2

Lindsay argued, as part of that claim, that the circuit court had applied the wrong standard when evaluating the appropriate
sentence to impose. We directed the circuit court to correct this discrepancy on remand. The circuit court complied with
our instructions. Accordingly, this issue is moot.
One federal court has questioned the holding in Magwood v. Smith. In Roberts v. Singletary, 794 F. Supp. 1106, 1137
(S.D. Fla. 1992), a Florida federal district court stated: “[T]he Court notes that the holding of Magwood may have been
limited by the Supreme Court's intervening decision in Lewis v. Jeffers, 497 U.S. 764, 110 S.Ct. 3092, 111 L.Ed.2d 606,
reh'g denied, 497 U.S. 1050, 111 S.Ct. 14, 111 L.Ed.2d 829 (1990).”

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Appendix C

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

P. O. Box 301555
Montgomery, AL 36130-1555
(334) 229-0751
Fax (334) 229-0521

May 15, 2020
CR-15-1061

Death Penalty

Stephen Lindsay v. State of Alabama (Appeal from Etowah Circuit Court: CC13-652)

NOTICE
You are hereby notified that on May 15, 2020, the following action was taken in the above
referenced cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.

T).

D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc: Hon. William B. Ogletree, Circuit Judge

Hon. Cassandra "Sam" Johnson, Circuit Clerk
Alison Nicole Mollman, Attorney
Paul R. Roberts, II, Attorney
Angela Setzer, Attorney
Scott Forester Stewart, Attorney
Audrey K. Jordan, Asst. Attorney General
Christopher R. Reader, Asst. Attorney General

Corrected
Appendix D

IN

T H E

S U P R E M E

C O U R T

O F

A L A B A M A

October 23, 2020
1190668
Ex parte Stephon Lindsay. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Stephon Lindsay v. State of Alabama) (Etowah Circuit Court:
CC13-652; Criminal Appeals : c R-15-1061).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on October 23, 2020:

Writ Denied. No Opinion. Bryan, J. - Parker, C.J., and Bolin, Shaw, Wise, Sellers,
Mendheim, Stewart, and Mitchell, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 23rd day of October, 2020.

Clerk, S uprem e Court of A lab am a

